<html>
<title> - THE DEPARTMENT OF ENERGY'S SUPPORT FOR THE SAVANNAH RIVER ECOLOGY LABORATORY (SREL), PARTS I & II</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                   THE DEPARTMENT OF ENERGY'S SUPPORT
                     FOR THE SAVANNAH RIVER ECOLOGY
                    LABORATORY (SREL), PARTS I & II
=======================================================================



                             JOINT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                                AND THE

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JULY 19, 2007
                                  and
                             AUGUST 1, 2007

                               ----------                              

                           Serial No. 110-45
                                  and
                           Serial No. 110-50

                               ----------                              

     Printed for the use of the Committee on Science and Technology



                     U.S. GOVERNMENT PRINTING OFFICE

36-143 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
                                ______


                  COMMITTEE ON SCIENCE AND TECHNOLOGY



                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
PAUL KANJORSKI, Pennsylvania         TOM FEENEY, Florida
DARLENE HOOLEY, Oregon               RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
MICHAEL M. HONDA, California         DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               VACANCY
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

              Subcommittee on Investigations and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
JERRY F. COSTELLO, Illinois          F. JAMES SENSENBRENNER JR., 
EDDIE BERNICE JOHNSON, Texas             Wisconsin
DARLENE HOOLEY, Oregon               DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        TOM FEENEY, Florida
BRIAN BAIRD, Washington              MICHAEL T. MCCAUL, Texas
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
                  EDITH HOLLEMAN Subcommittee Counsel
            JAMES PAUL Democratic Professional Staff Member
       DOUGLAS S. PASTERNAK Democratic Professional Staff Member
           KEN JACOBSON Democratic Professional Staff Member
            TOM HAMMOND Republican Professional Staff Member
                    STACEY STEEP Research Assistant
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
          ELIZABETH STACK Republican Professional Staff Member
                    STACEY STEEP Research Assistant
   The Department of Energy's Support for the Savannah River Ecology 
                       Laboratory (SREL), Part I


                            C O N T E N T S

                             July 17, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     9

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................    10
    Written Statement............................................    11

Statement by Representative F. James Sensenbrenner, Jr., Ranking 
  Minority Member, Subcommittee on Investigations and Oversight, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    12

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    14
    Written Statement............................................    14

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Investigations and Oversight; Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    18

Prepared Statement by the Honorable J. Gresham Barrett, Third 
  Congressional District of South Carolina, U.S. House of 
  Representatives................................................    19

                                Panel I:

Hon. John Barrow, a Representative of the State of Georgia, 12th 
  District
    Oral Statement...............................................    20
    Written Statement............................................    23

                               Panel II:

Dr. Paul M. Bertsch, Former Director, Savannah River Ecology 
  Laboratory, University of Georgia; Georgia Power Professor of 
  Environmental and Soil Chemistry [NOT HEARD]

                               Panel III:

Dr. Jerald L. Schnoor, Professor, Civil and Environmental 
  Engineering; Co-Director, Center for Global and Regional 
  Environmental Research, University of Iowa
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    83

Dr. F. Ward Whicker, Professor, Radiological Health Sciences, 
  Colorado State University
    Oral Statement...............................................    84
    Written Statement............................................    86
    Biography....................................................    93

Discussion
  Private Contractors Vs. SREL...................................    93
  National Environmental Research Parks..........................    94
  The Value of Long-term Ecological Research.....................    94
  National Laboratories' Overhead Costs..........................    95
  Radiation Hormesis.............................................    97
  Competitive Grants and Peer Review.............................    99
  Environmental Remediation Research Done By SREL................   100
  Fate and Transport Studies.....................................   101

   The Department of Energy's Support for the Savannah River Ecology 
                       Laboratory (SREL), Part II

                            C O N T E N T S

                             August 1, 2007

                                                                   Page
Witness List.....................................................   104

Hearing Charter..................................................   105

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................   111
    Written Statement............................................   113

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................   114
    Written Statement............................................   115

Statement by Representative Ralph M. Hall, Ranking Minority 
  Member, Committee on Science and Technology, U.S. House of 
  Representatives................................................   120
    Written Statement............................................   122

Statement by Representative F. James Sensenbrenner, Jr., Ranking 
  Minority Member, Subcommittee on Investigations and Oversight, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................   116
    Written Statement............................................   118

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................   118
    Written Statement............................................   120

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Investigations and Oversight; Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................   126

                                Panel I:

Mr. Clay Sell, Deputy Secretary of Energy, U.S. Department of 
  Energy
    Oral Statement...............................................   127
    Written Statement............................................   129
    Biography....................................................   130

Discussion
  SREL Funding Sources for Fiscal Years 2006 and 2007............   131
  Details of the Cooperative Agreement...........................   133
  Does the Department of Energy Award Noncompetitive Funding?....   135
  Mr. Sell's Role in the Cooperative Agreement...................   135
  New Funding Criteria for SREL..................................   136
  DOE Support for SREL...........................................   137
  Who Knew About SREL Funding Changes?...........................   140
  Who Will Fill SREL's Role?.....................................   141
  Documents Provided By SREL.....................................   142
  SREL Budget....................................................   144
  Guaranteed Funding Sources.....................................   145
  Article From the University of Georgia.........................   146
  Competition for Tasks Performed By SREL........................   147
  Environmental Characterization Without SREL....................   147
  More on SREL Competition.......................................   148
  Environmental Responsibility to Local Communities..............   149
  Budget Allocations.............................................   150
  More on SREL Funding...........................................   151
  May 20th Memo..................................................   152
  Government Versus the Private Sector...........................   152

                               Panel II:

Dr. Paul M. Bertsch, Former Director, Savannah River Ecology 
  Laboratory, University of Georgia; Georgia Power Professor of 
  Environmental and Soil Chemistry
    Oral Statement...............................................   154
    Written Statement............................................   156
    Biography....................................................   161

Ms. Karen K. Patterson, Chair, Savannah River Citizens Advisory 
  Board
    Oral Statement...............................................   162
    Written Statement............................................   163
    Biography....................................................   167

Discussion
  Conversation About Reduced DOE Funding.........................   168
  Playing Mr. Allison for a Chump................................   169
  July 2005 Newsletter Quote.....................................   169
  Competing in the Work Done for SREL............................   170
  Understanding SREL Funding From the DOE in 2007................   170
  University of Georgia SREL Funding.............................   171
  Broadening SREL's Funding Base.................................   172
  SRS Funding for SREL and Jill Sigal............................   172
  Savannah River Ecology Laboratory Long-term Funding............   174
  More on Broadening SREL's Funding Base.........................   176
  Office of Science Grants.......................................   176
  Ms. Sigal and Mr. Anderson.....................................   177
  More on University of Georgia Funding..........................   178
  SRS Environmental Research.....................................   178
  SREL Peer Review...............................................   179
  Community Relationship With SRS Without SREL...................   179
  More on Ms. Sigal and Mr. Anderson.............................   180
  Credibility of For-profit Contractors Versus SREL..............   180

                               Panel III:

Mr. Charles E. Anderson, Principal Deputy Assistant Secretary, 
  Office of Environmental Management, U.S. Department of Energy
    Oral Statement...............................................   182
    Written Statement............................................   189
    Biography....................................................   190

Mr. Jeffrey M. Allison, Manager, U.S. Department of Energy--
  Savannah River Operations Office
    Oral Statement...............................................   191
    Written Statement............................................   192
    Biography....................................................   193

Mr. Mark A. Gilbertson, Deputy Assistant Secretary for 
  Engineering and Technology, Office of Environmental Management, 
  U.S. Department of Energy
    Oral Statement...............................................   194
    Written Statement............................................   195
    Biography....................................................   195

Ms. Yvette T. Collazo, Assistant Manager for Closure Project, 
  Savannah River Operations Office, U.S. Department of Energy
    Oral Statement...............................................   196
    Written Statement............................................   198
    Biography....................................................   199

Discussion
  2005 SREL Cooperative Agreement................................   199
  Rejection of Tasks Submitted to the DOE........................   201
  Mr. Allison's Background With SREL and the DOE Agreements......   202
  Mr. Anderson's Involvement With the SREL Funding Issue.........   204
  Dr. Bertsch and the Agreement..................................   204
  Mission Critical Work..........................................   206
  Amphibian Mutations............................................   207
  More on Mr. Anderson's Background..............................   208
  Nature of the Agreement........................................   209
  More on Ms. Sigal..............................................   209
  SREL Becoming Self-funded......................................   210
  General Background From Mr. Gilbertson.........................   210
  More on Mr. Anderson...........................................   212
  Future Projects in the Community...............................   213
  Decision to Eliminate SREL's Budget............................   214
  Raising Money for SREL.........................................   216

Dr. Raymond L. Orbach, Under Secretary for Science, U.S. 
  Department of Energy
    Oral Statement...............................................   217
    Written Statement............................................   218

Discussion
  Background on the Involvement of the Office of Science.........   219
  Confidence in SREL.............................................   221
  More on SREL Funding...........................................   221
  Peer Review of SREL Tasks......................................   221
  SREL Competition...............................................   222
  Office of Science Funding Process..............................   223
  Why Was SREL Funding Zeroed Out?...............................   223
  Cutting Environmental Remediation Sciences Program Budget......   224
  How the Office of Science Provides Funding.....................   225
  SREL Funding Decision..........................................   226
  Prioritizing Surface and Subsurface Contamination..............   226
  SRS Complying With Environmental Laws Without SREL.............   227
  Congressional Funding for SREL.................................   228
  More on Subsurface Versus Surface Contamination................   229
  Discussion.....................................................   230

              Appendix: Additional Material for the Record

Cooperative Agreement No. DE-FC09-07SR22506 for Operation of the 
  Savannah River Ecology Laboratory (SREL) Program, December 1, 
  2006...........................................................   234

Material produced by Dr. Paul M. Bertsch, Former Director, 
  Savannah River Ecology Laboratory, University of Georgia at the 
  request of Jill Sigal, then-Assistant Secretary for 
  Congressional and Intergovernmental Affairs, May 2005..........   364


   THE DEPARTMENT OF ENERGY'S SUPPORT FOR THE SAVANNAH RIVER ECOLOGY 
                       LABORATORY (SREL), PART I

                              ----------                              


                         TUESDAY, JULY 17, 2007

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller and Honorable Nick Lampson [Chairman of the Subcommittee 
on Investigations and Oversight] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         joint hearing charter

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                                and the

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   The Department of Energy's Support

                     for the Savannah River Ecology

                       Laboratory (SREL), Part I

                         tuesday, july 17, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose:

    The purpose of the hearing is to examine the past and current work 
of the Savannah River Ecology Laboratory (SREL), its relationship to 
the Savannah River Site and the Communities bordering the Site, and the 
events leading to the Department of Energy's decision to withdraw 
funding for the laboratory in fiscal year 2007.

Background:

    SREL was established in 1951 to track the ecological changes and 
environmental consequences of establishing nuclear weapons production 
facilities on the Savannah River Site (SR or SRS). It is unique within 
the DOE complex because it is the only lab that is not ``owned'' by 
DOE. Rather, the University of Georgia founded the lab and has always 
had a relationship with DOE that has allowed them to be present on the 
site and funded by the Department (and the Atomic Energy Commission 
before DOE was established).
    SREL has been a very productive scientific lab with a distinguished 
record of publication and an amazing amount of unbroken data sets on 
the ecology of the site. While the site itself was a center for weapons 
production and contains enormous amounts of waste, with ongoing waste 
processing that will stretch out for a generation or longer, it is also 
an enormous physical site--much of which includes pristine 
environmental conditions. Largely untouched by development, the 
Savannah River site hosts the most diverse and complex ecology in North 
America and contains all representative ecosystems of the southeastern 
U.S.
    Recognizing these unique features of the site, in 1972 the Atomic 
Energy Commission created the first National Environmental Research 
Park (NERP) located within the DOE complex at Savannah River. There are 
seven NERPs located at DOE sites around the country. SRS has 30 set-
aside areas where no development of any kind is allowed to go forward. 
SREL has monitored the ecology in these set-asides ever since they were 
established. Another facet of the SREL work in the NERP is that they 
are a major way that the Savannah River Site carries out its 
``stewardship'' responsibilities--to show to the Nation that they are 
caring for the site in a way that justifies their occupation of the 
land at these sites. The National Environmental Policy Act (NEPA) 
established environmental protection as a mission of all federal 
agencies. SREL has carried out this function through very successful 
public education programs to bring the public and students to the site 
and show them the unique qualities of the ecology there.
    SREL also collects data that is used by the site to demonstrate its 
compliance with a number of environmental laws. IF SREL does not 
provide these data as part of their base work, the site will have to 
hire a contractor to collect that information. The communities that 
border the site in Georgia and South Carolina and that are located 
downstream from the site also rely on the lab to be a trusted, 
independent voice that will tell them the truth about the nuclear 
wastes on the site, the remediation activities on the site, and the 
safety of being near or downstream from it.

DOE Funding and Cooperative Agreement with SREL and University of 
                    Georgia:

    The Bush Administration's budget requests for SREL have varied 
considerably, but with a general downward trend since FY 2002. The 
first budget they composed, for FY 2002, included a 30 percent cut in 
the request for the lab by Environmental Management (EM). Then in FY 
2003 and FY 2004, the lab's funding line was moved to the Office of 
Science accounts and did well (requests of around $8 million). In FY 
2005 the budget request eliminated all funding for the lab. The Georgia 
and South Carolina delegations secured funds in the FY 2005 
appropriation to reverse this decision. These delegations met with DOE 
and an agreement was made that the Administration would fund the lab at 
$4 million in FY 2006 with $1 million coming from Science and $3 
million coming from DOE. It is with that deal that the path to closing 
the lab begins. What follows is largely based on the documentary record 
provided to the Subcommittees by the Department of Energy, SREL and the 
University of Georgia (UGA).

Negotiations Begin on a New Cooperative Agreement--May 2005:
    SREL and UGA's existing cooperative agreement was to expire in 
July, 2006. In May 2005, the Department hosted a meeting involving 
then-Assistant Secretary for Congressional and Intergovernmental 
Affairs, Jill Sigal, other DOE staff, representatives from the 
University of Georgia and SREL, and representatives from the Georgia 
and South Carolina delegations. The Department did not want to face an 
ongoing string of appropriations earmarks and the delegations wanted 
some agreement that the lab would be supported. That meeting led to an 
agreement that in FY 2006 the Department would provide $4 million (plus 
some money from the National Nuclear Security Administration--NNSA) and 
in FY 2007 it would provide at least $1 million from EM accounts.
    There is disagreement about whether $1 million was a cap or a 
floor, but there was ample discussion at that meeting about the 
perceived need for the SRS to use SREL to further their mission. 
Director Bertsch said that as long as he could pursue money from the 
programs on the site in addition to EM funding he would be able to keep 
the lab going. Jill Sigal requested that Dr. Bertsch put together a 
plan to show how he would do that, and so the day after the meeting, 
Dr. Bertsch forwarded a business plan that included the work SREL would 
undertake that was needed by the site. He was never told the plan was 
unacceptable. In fact, a subsequent memorandum from the Principal 
Deputy for Environmental Management, Charlie Anderson, directed the SR 
site manager for DOE to negotiate a new five-year cooperative 
agreement. The memo drew extensively from Dr. Bertsch's business plan. 
The Director of the SRS, Jeff Allison, then informs Bertsch that he has 
been directed to negotiate a new cooperative agreement. Bertsch and 
Allison work on this for over a year.
    In March of 2006, even as negotiations continue, Mr. Allison tells 
Dr. Bertsch to budget for $4 million at SREL from SRS/EM in the FY 2007 
budget. When they reach agreement on a new cooperative agreement, it 
provides for $4 million a year from 2007 through 2011 with a 2.5 
percent escalator to allow for inflation. The agreement is sent up to 
DOE Headquarters for notification in August of 2006 and then again (due 
to an imperfection in the process) in September 2006. If Headquarters 
had approved it, Allison would have been authorized to sign the 
agreement. However, the agreement was never approved at Headquarters.

The Cooperative Agreement is Not Approved and Negotiations Begin 
        Again--September 2006
    Instead negotiations are re-opened with new criteria for the 
cooperative agreement. Deputy Secretary, Clay Sell, was briefed and he 
determined--supposedly with the approval of the Secretary--that the new 
agreement would provide $1 million of guaranteed funding in FY 2007 
plus additional funding on a task-by-task basis.
    The initial reaction from SREL was that this offer would lead to 
the closure of the lab, but the SR Site Director, Jeff Allison, assured 
SREL their work was needed by the site and he would fund their tasks 
using funds the site Director has discretion over to award for site-
based projects. DOE Headquarters was aware of the assurance provided by 
Mr. Allison to SREL.
    SREL then enters into negotiations once again to secure a new 
cooperative agreement. From September 2006 through November 2006, Dr. 
Bertsch was working with SRS assistant managers to identify the 
projects the site would fund to meet $3 million in identified needs. At 
the same time, DOE Headquarters officials were scrutinizing the 
language of the cooperative agreement. Headquarters was insisting on 
highlighting language that emphasized funds were subject to ``need, 
merit and availability of funds.'' They also included a provision that 
any funds could be subject to a ``technical peer review.'' Bertsch 
believed this would be the kind of review his programs had been through 
many times in the past--where evaluators look at the sweep, mix and 
quality of science being done by the lab. However, DOE had something 
else in mind that was not made clear to the lab until months after the 
agreement was signed on December 1, 2006.

New Funding Criteria are Established by Headquarters and Funding is 
        Denied--February 2007
    In January of this year, Dr. Bertsch and SREL believed they had a 
new cooperative agreement that made them financially stable. The site 
Director repeatedly assured SRS that they needed the SREL's work and he 
had the money to fund it (his budget for FY 2007 had $4.1 million 
identified for SREL). However, in February, DOE Headquarters announced 
there would be a task-by-task peer review process for all of the items 
that SREL has proposed. The standard for this ``peer review'' was 
established by Headquarters--tasks must be deemed ``mission critical in 
FY 2007.''
    As it turns out, almost nothing meets this standard at 
Environmental Management. EM's primary mission is clean-up. 
Establishing a metric for a project that requires progress on clean up 
within six months--because by April or May of 2007, the fiscal year is 
half-over--ensures that no projects done by a research lab will meet 
the criteria. On May 7, SREL is informed that only $800,000 of its 
proposed $3 million in work would be funded. This process was led by 
Headquarters in the sense that HQ invented the review process and 
established the standard. The site was left to carry out the directions 
of Headquarters.
    The Department asserts they were living up to the terms of the 
cooperative agreement of providing $1 million plus projects deemed to 
be ``needed.'' The Department also embarks on a campaign of lies and 
distortions that can be tracked in the letters sent to Mr. Barrow and 
to the Subcommittee Chairmen. DOE portrays the lab management as having 
been lazy for not seeking out more non-DOE funding and the University 
as neglectful of management at the lab. There are rumblings that EM may 
ask for an IG audit of the books at SREL. As to whether the lab closes 
or not, the Department says that is entirely up to the University and 
the Department has nothing to do with that--as if their funding 
decision and prior promises were irrelevant to the situation at the 
lab.

Subcommittees of the Committee on Science Begin Their Investigation--
        May 2007
    The Subcommittees sent a letter to DOE within 10 days of Dr. 
Bertsch receiving notice that funding was not to be continued. The 
University of Georgia announced it was extending lab personnel's 
salaries through the end of June--even though DOE money would run out 
at the end of May. The University decided not to formally close the 
lab, but 40 people had their last day at the lab on June 29--some who 
had been there over 20 years. Approximately 30-40 more are being moved 
back to the University campus in Athens, GA in one capacity or another. 
The remaining 30-40 will stay on site to carry out work funded through 
grants already in place from other agencies. The future of the lab and 
the long-term data sets it maintains is unclear unless DOE restores 
funding for its work. Without that core funding, the lab cannot 
continue to operate. Dr. Bertsch was asked to resign by the University 
at the request of the Secretary of Energy, Mr. Bodman. Bertsch's ten-
year run as Director ended because it appears the Department resented 
efforts by SREL to explain to the Congress and the public that they 
were on the edge of being closed.

Witnesses:

Panel I

Representative John Barrow (GA) represents the Georgia communities that 
border the Savannah River Site.

Panel II

Dr. Paul Bertsch is the former Director of the Savannah River Ecology 
Laboratory. Dr. Bertsch is a fact witness to every major action 
regarding this lab from May 2005 until his forced departure in June 
2007.

Panel III

Dr. Jerry Schnoor, University of Iowa, is an expert in sub-surface 
science and engineering. He is Editor of the Journal of Environmental 
Science and Technology and a member of the National Academy of 
Engineering. Dr. Schnoor will testify to the quality of the work done 
at SREL on remediation and sub-surface fate and transport of 
pollutants.

Dr. Ward Whicker, Colorado State University, is a radio-biologist and 
the winner of the Department of Energy's prestigious Lawrence Prize. He 
has done research on the Savannah River site and is very familiar with 
the importance of SREL's research to the wider scientific community and 
to State regulators. Dr. Whicker will also discuss the importance of 
the surface science work involving animal populations on the site done 
by the lab.
    Chairman Miller. Good morning. This hearing will come to 
order. This is a hearing of both the Subcommittee on 
Investigations and Oversight and the Subcommittee on Energy and 
Environment of the Science and Technology Committee. We will 
have another hearing that is a joint hearing of the two 
Subcommittees on Thursday of this week.
    Today's hearing is entitled The Department of Energy's 
Support for the Savannah River Ecology Laboratory, Part I. An 
enormous amount of effort has gone into undermining support for 
a very small but very important independent laboratory. The 
Savannah River Ecology Lab, housed at the Savannah River 
Nuclear Site since 1931, and run by the University of Georgia, 
has an impressive record of scientific contributions to 
environmental sciences.
    Headquarters staff the Department of Energy, right up to 
the former head of Congressional and Intergovernmental Affairs, 
the current Deputy Secretary, and the Secretary himself, have 
all played a role in trying to eliminate funding from the 
Department of Energy for the lab.
    The overall budget of the Department of Energy is $26 
billion. The total funding for the laboratory has been about $4 
million. I certainly don't want to say that $4 million is too 
little an amount for the Executive Branch to sweat. We 
certainly want them to be concerned about amounts of that size, 
but to give you a benchmark or a point of comparison, a few 
weeks ago we heard that the Administrator of NASA spoke to the 
Inspector General's staff and told them not to bother with 
investigations except investigations into fraud and only 
investigations in fraud that would result in savings of at 
least a billion dollars. Less of that just wasn't worth the 
trouble.
    So it is curious that the Department of Energy, with a $26 
billion a year budget, has spent so much attention on an 
independent lab that receives about $4 million a year in 
funding. And why, the question becomes, why?
    The question could also be asked by this committee. Why are 
we holding this hearing, and it is Part I. There will be 
further hearings on this laboratory, and the reason for our 
interest is that we care that, although the lab is small, the 
amount being expended is small relative to the federal budget, 
the scientific importance of the lab has been enormous. It has 
certainly been enormous in the work that they do in radiation 
measurements and detecting the effect of radiation at a time 
when we are worried about a dirty bomb as the most likely form 
of a terrorist attack. It is certainly important when we are 
looking at almost certainly relying more on nuclear energy in 
the near future than we have. The importance of a lab that does 
ecological research into the effect of radiation is very 
important.
    Scientific research has been the core mission of the lab 
for most of its 51 years. It is hard to put a price tag on the 
value of the lab's research. The lab has contributed to the 
mission of the Department of Energy on the site in very direct 
ways. The documents that we will enter into the record today 
and the story of the former Director, Dr. Paul Bertsch, will 
tell, the story they will tell will make it abundantly clear 
that the Department managers at the site value the lab for all 
of its contributions. And the lab does play an essential role 
in the Savannah River Site's need to meet environmental 
regulatory compliance requirements. Compliance requirements of 
the actual Environmental Policy Act, the Endangered Species 
Act, the Comprehensive Environmental Response Compensation 
Liability Act, the Resource Conservation and Recovery Act, and 
the lab has also helped the Savannah River Site, a national 
environmental research park, through public education and tour 
efforts.
    The lab conducts environmental outreach programs that, for 
the Department of Energy, give the site more credibility in the 
eyes of folks in the community around the site because it is 
independent, and they think they can trust what the lab has to 
say. In all those ways and more, the lab is essential to the 
functioning of the Savannah River Site, and certainly appears 
to be worth every bit of the $4 million dollars the Department 
of Energy has spent on it in the recent past.
    But the folks at the Department of Energy's headquarters 
believe differently. They thought that the best face to put on 
the conduct for the Department of Energy over the last several 
months has been that they directed the local site manager, Jeff 
Allison, and his staff to negotiate with the lab in bad faith 
to change the rules, to change the purposes, to change the 
objectives frequently and to leave the lab dangling without 
funding to continue.
    They never told the lab exactly what was happening, but 
they stepped in. The headquarters, DOE headquarters, stepped in 
to guarantee the lab would not receive the resources necessary 
to keep it operating. Headquarters' actions left the University 
of Georgia halfway through a fiscal year to figure out whether 
to close the lab or let it limp along to fill out remaining 
federal grants from other agencies. And the Department washed 
its hands of the outcome and misrepresented everything they 
have done to anyone who has asked--the public, the press, and 
Congress.
    These conclusions are not based on hearsay. They are not 
based on speculation. They are based upon a review of the 
documents of the Department's own materials, and many of those 
materials are being made public today, and public scrutiny for 
the Department of Energy's conduct with respect to the Savannah 
River Lab is long overdue.
    Just as an example, the tasks that the Department of Energy 
asked the lab to submit in February went through what was 
called a technical peer review. Among other places in a letter 
to Representative Barrow and a statement from a Department of 
Energy spokesman that was prominently placed in local news, 
supposedly went through scientific peer reviews. But no peer 
review of any kind ever occurred. The Department of Energy 
staff now concedes that. A different kind of review was done at 
the behest of the headquarters, one that seems unprecedented 
and invented solely for the occasion and solely to produce the 
outcome of closing the lab. The headquarters instructed the 
site to evaluate each task on whether it met a mission-critical 
need in 2007, this year. No one at the lab knew what that 
meant, and most of the research that they have done over their 
51 years has been long-term research, not research designed to 
bring an immediate result.
    And it appears the Department of Energy meant by that only 
research done to do immediate cleanup, and no other research 
performed at the lab was worth funding. The process appears to 
be designed to reach a result and, the result was to close the 
lab. No science lab in the country does research that pays 
dividends in the next six months. That is just not what science 
is about. A handful of people at headquarters really 
eviscerated the lab, a lab that is internationally renowned for 
work that has saved the taxpayers millions, maybe billions of 
dollars, and the question is, why? Why have they worked so hard 
to close a lab that has received $4 million a year? Is it 
really about the $4 million?
    We will hear from the Department at our next hearing. Mr. 
Clay Sell has agreed to appear. He agreed to appear today, but 
his schedule and personal circumstances have made that 
impossible, so we will hear from him at a later date. I know 
there are some folks from the Department of Energy here today 
observing the hearing. We welcome you, and we hope that we do 
receive all the documents that we have requested in time to 
review them thoroughly before Mr. Sell does testify.
    And we look forward to hearing the Department to explain 
their side of events.
    I would now like to recognize Mr. Nick Lampson, 
distinguished Chairman of the Energy and Environment 
Subcommittee.
    [The prepared statement of Chairman Miller follows:]
               Prepared Statement of Chairman Brad Miller
    An enormous amount of effort has gone into undercutting the support 
for a very small, but very important lab. The Savannah River Ecology 
Lab, housed on the Savannah River nuclear site since 1951 and run by 
the University of Georgia, has an unparalleled record of scientific 
contributions to the environmental sciences.
    Headquarters staff at the Department of Energy, right up to the 
former head of Congressional and Intergovernmental Affairs, the current 
Deputy Secretary and the Secretary himself, have all played a role in 
trying to eliminate funding from the Department for the lab. Why would 
any of these figures spend even one minute worrying about a $4 million 
a year lab when they have to manage a $26 billion a year enterprise?
    The question could just as easily be put to the Committee: why do 
we care about the loss of such a small lab?
    The answer is easy: We care because while the dollar impact of the 
lab is small, the scientific importance of the lab has been enormous. 
Scientific research, and that was the core mission of the lab for most 
of its fifty-one years, is not about a return on an investment today 
but about giving us understanding that will guide our actions tomorrow. 
It is hard to put a price tag on such knowledge.
    The lab certainly contributed to the mission of the Department of 
Energy and the site in very direct ways. The documents we will enter 
into the record today, and the story that the former Director, Dr. Paul 
Bertsch, will tell makes it abundantly clear that the Departmental 
managers at the site valued the lab for all its contributions.
    The lab plays an essential role in the Savannah River site's need 
to meet environmental regulatory compliance requirements under the 
National Environmental Policy Act, the Endangered Species Act, the 
Comprehensive Environmental Response Compensation and Liability Act, 
and the Resource Conservation and Recovery Act. The lab also has helped 
manage the SRS National Environmental Research Park through public 
education and tour efforts. The lab conducts environmental outreach 
programs for DOE that give the site more credibility in the eyes of the 
local communities because the lab is seen as being independent of the 
Department. In all these ways and more, the lab was essential to the 
functioning of the site--or at least it was so viewed by site 
management. And, all of that for $4 million dollars a year.
    These conclusions are not based on hearsay or speculation, but a 
careful review of the Department's own materials. Many of those 
materials are being made public today and public scrutiny is long 
overdue.
    Just as an example, the tasks that DOE asked the lab to submit in 
February went through a ``technical peer review.'' In other places, 
including a letter to Representative Barrow and a statement from a DOE 
spokesperson that was prominently placed in the local press, the tasks 
supposedly went through scientific peer reviews. No peer review of any 
kind ever occurred--DOE staff admitted that to Subcommittee staff in a 
meeting some weeks ago.
    A different kind of review was done at the behest of headquarters--
one that seems unprecedented and invented solely for the situation. 
Headquarters instructed the site to evaluate each task to see if it met 
a ``mission critical'' need in 2007. No one at the site knew what that 
meant. In the environmental management offices that invented the 
standard, ``mission critical'' meant one thing--does it clean up waste 
right now, today, or not? If work doesn't do that, then the work is not 
worth funding.
    It is a process designed to give one outcome and one outcome only. 
No science lab in the country does research that pays dividends in the 
next six months. That is just not what science is about. A handful of 
people at headquarters gutted a lab that is internationally renowned 
for work that has saved the taxpayer millions, maybe billions of 
dollars.
    One question eludes us: Why?
    It is hard to believe that the effort to close the lab is really 
about $4 million.
    We look forward to Departmental witnesses joining us at a later 
date. Mr. Clay Sell had agreed to appear today, but personal 
circumstances have pulled him away. We are working to find another date 
before the recess where we can have the Department in to explain their 
conduct and their letters to the Subcommittees and the Congress.
    Now, I would like to recognize Mr. Lampson, the distinguished 
Chairman of the Energy and Environment Subcommittee.

    Chairman Lampson. Thank you, Mr. Chairman, Chairman Miller. 
I think it is excellent that our Committee on Energy and 
Environment joins the Subcommittee on Investigations and 
Oversight for this very important hearing. I certainly concur 
with all of the things that you have said here today and 
certainly we are here to attempt to solve a mystery, a mystery 
involving the Savannah River Ecology Laboratory, SREL, a 
laboratory associated with the University of Georgia and 
located on the Department of Energy's Savannah River Site.
    What is SREL? It is a laboratory whose work has saved the 
taxpayers millions of dollars in remediation costs. A 
laboratory that has the confidence of the local communities in 
South Carolina and Georgia adjacent to the Savannah River Site, 
and the enthusiastic support of the Citizens Advisory Council 
associated with the site. A laboratory that has been in 
existence since the 1950's when the Savannah River Site was 
established. It was founded by one of the Nation's foremost and 
imminent ecologists, Dr. Eugene Odum, and it is maintained 
invaluable continuous long-term data sets on important animals 
and plants.
    This laboratory in conjunction with the University of 
Georgia has trained hundreds of environmental scientists and 
has run popular and successful public education and outreach 
programs on the Savannah River Site. SREL has also assisted the 
site in its efforts to comply with federal and State 
environmental laws. It also manages one of the seven National 
Environmental Research Parks in a network of ecologically 
important sites that exist on DOE property across the country. 
The Savannah River Ecology Laboratory has provided these 
services to the taxpayers of this country at a cost of less 
than $10 million a year.
    Well, this is a record of achievement that any organization 
would be proud of and certainly one that deserves recognition. 
And what is their reward for those 50 years plus of service? 
Well, they have certainly been recognized by the DOE 
headquarters. They have been, unfortunately, rewarded with a 
loss of funding in the middle of the fiscal year leading to 
layoffs and essentially the closure of the laboratory, a move 
that places the ongoing research and the continuity of long-
term data sets in grave jeopardy. Bad faith bargaining in the 
renewal of a cooperative agreement with their federal partner, 
the Department of Energy, and the dismissal of the laboratory's 
director, apparently by personal request of the Secretary of 
Energy to the President of the University of Georgia.
    I simply do not know what to make of it. I feel as if I am 
in the middle of Wonderland with Alice.
    The callous treatment of the employees of SREL is 
disgraceful. Beyond the hardship inflicted on them by the 
sudden and unexpected job loss, this decision is absurd. It is 
not in the interest of the people of South Carolina and 
Georgia, the Savannah River Site, the Department of Energy, or 
the rest of this nation.
    And we have witnesses with us today who will be able to 
begin to tell us about this laboratory, its history, and its 
work. Dr. Paul Bertsch, the former Director of the lab, will be 
able to tell us about the events of the past few years that 
have brought us here today.
    We will hear from the Department of Energy at another 
hearing, but I am not confident that we will ever fully 
understand why the headquarters of the Department of Energy has 
spent a great deal of time and effort to close a world-class 
laboratory with an excellent record of service to the 
Department, to the Nation, and to the local community. I 
believe the ultimate reasons for this absurd and ill-advised 
decision may be and continue to be a mystery that will not be 
able to solve. Hopefully, though, we will reverse this decision 
and restore this laboratory so that it may continue its good 
work.
    And I yield back the balance of my time, Mr. Chairman.
    [The prepared statement of Chairman Lampson follows:]
              Prepared Statement of Chairman Nick Lampson
    We are here today to try to solve a mystery involving the Savannah 
River Ecology Laboratory (SREL)--a laboratory associated with the 
University of Georgia and located on the Department of Energy's 
Savannah River Site.
    What is SREL? Well it is a laboratory whose work has saved the 
taxpayers millions of dollars in remediation cost. A laboratory that 
has the confidence of the local communities in South Carolina and 
Georgia adjacent to the Savannah River Site and the enthusiastic 
support of the Citizens Advisory Council associated with the site. A 
laboratory that has been in existence since the 1950's when the 
Savannah River Site was established. It was founded by one of our 
nation's most eminent ecologists--Dr. Eugene Odum--and it has 
maintained invaluable continuous long-term data sets on important 
animals and plants. This laboratory in conjunction with the University 
of Georgia has trained hundreds of environmental scientists and has run 
popular and successful public education and outreach programs on the 
Savannah River Site. SREL has also assisted the Site in its efforts to 
comply with federal and State environmental laws. It also manages one 
of the seven National Environmental Research Parks in a network of 
ecologically important sites that exist on DOE property across the 
country. The Savannah River Ecology Laboratory has provided these 
services to the taxpayer at a cost of less than $10 million dollars per 
year.
    Well, this is a record of achievement that any organization would 
be proud of, and certainly one that deserves recognition. And what is 
their reward for these 50 years of service? Well they have certainly 
been recognized by DOE Headquarters. They have been rewarded with a 
loss of funding in the middle of the fiscal year leading to layoffs and 
essentially the closure of the laboratory--a move that places the 
ongoing research and the continuity of long-term data sets in grave 
jeopardy; bad faith bargaining in the renewal of a cooperative 
agreement with their federal partner--the Department of Energy; and the 
dismissal of the laboratory's Director--apparently by personal request 
of the Secretary of Energy to the President of the University of 
Georgia.
    I simply do not know what to make of this. I feel as if I am in the 
middle of Wonderland with Alice.
    The callous treatment of the employees of SREL is disgraceful. 
Beyond the hardship inflicted on them by the sudden, unexpected job 
loss--this decision is absurd. It is not in the interest of the people 
of South Carolina and Georgia, the Savannah River Site, the Department 
of Energy, or the rest of the Nation.
    We have witnesses with us today who will be able to tell us about 
this laboratory, its history and it work. Dr. Paul Bertsch, the former 
Director of the laboratory, will be able to tell us about the events of 
the past few years that have brought us here today.
    We will hear from the Department of Energy at another hearing, but 
I am not confident that we will ever fully understand why the 
Headquarters of the Department of Energy has spent a great deal of time 
and effort to close a world-class laboratory with an excellent record 
of service to the Department, to the Nation, and to the local 
community. I believe the ultimate reasons for this absurd and ill-
advised decision may be a mystery we will not be able to solve. 
Hopefully, we will reverse this decision and restore this laboratory so 
that it may continue its good work.

    Chairman Miller. Thank you, Mr. Lampson. The Chair now 
recognizes Mr. Sensenbrenner for an opening statement.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. I had 
a prepared opening statement that I was prepared to read into 
the record, but after hearing both the distinguished Chair from 
North Carolina and the other distinguished Chair from Texas, 
let me state that I am really disturbed that what appears to be 
a piece of bad faith on one side is being reciprocated with 
another piece of bad faith right here on the other side of the 
aisle.
    The Deputy Secretary of the Department of Energy had to 
leave town for a funeral. We can't help those kinds of things. 
Sometimes we have to leave town for funerals as well, whether 
it is a family member or a very close, personal friend, or a 
mentor or something like that. And there was a request that was 
made at the Majority staff to postpone this hearing until Mr. 
Sell could come on back to be able to testify on behalf of the 
Department of Energy on why the decisions were made. The 
Majority rejected that request, and I think that that in and of 
itself was unfair.
    Now, after hearing both Mr. Miller and Mr. Lampson's 
opening statement I think the purpose of the hearing is now 
clear. It is not to investigation the contributions of SREL, 
something that all of the witnesses that are here can testify 
to, and I think which is not at the heart of the controversy. 
The purpose of this hearing is to attack the Department of 
Energy, and specifically Deputy Secretary Clay Sell, which 
isn't able to be here to be able to defend itself.
    Now, I have heard from the other side of the aisle that we 
are going to go to the expense of having a second hearing where 
Mr. Sell will come on in and testify some time later on. That 
is not really necessary, and I think the purpose of having an 
investigation is to be able to hear both sides of the argument.
    Now, the argument I don't think is the contributions that 
SREL has made over the years. That really is not the issue. The 
issue is a disconnect between the Department of Energy people 
who were on site at SREL and the headquarters office of the 
Department of Energy that apparently made the decision to 
discontinue the funding.
    And the attack that I have heard from both of the 
distinguished Chairmen can't fairly take place when DOE can't 
be here to defend itself. The witness did have to leave 
Washington to go to a funeral, and it simply is not fair for 
this hearing to proceed without DOE being able to be present. 
You know, I come to these hearings like this with an open mind, 
but when there is a procedural overreach, and there clearly is 
a procedural overreach in the case of this instance because of 
Mr. Sell's necessity to go to a funeral, I would ask the two 
distinguished Chairs to postpone this hearing so that we can 
hear about all these issues at one hearing. And if you don't do 
so, I think that shows that you folks are hell bent to hang DOE 
in a time when DOE cannot be there to defend itself.
    And I yield back the balance of my time.
    Chairman Lampson. May I interrupt one second?
    Mr. Sensenbrenner. I yield to the Chairman.
    Chairman Lampson. And ask that----
    Chairman Miller. Well, and Mr. Sensenbrenner, I certainly 
agree that funerals of family members or close family friends 
or close friends is something we should respect, but what you 
just said I am advised by our staff is not correct. The 
Department of Energy did not request that the hearing itself be 
postponed, only that Mr. Sell be excused from appearing today.
    Mr. Sensenbrenner. Well, I am requesting, reclaiming my 
time. I am requesting that the hearing be postponed because I 
think that to use kind of a tried phrase that we hear on one 
television network, we ought to be fair and balanced. And we 
can't be fair and balanced because Mr. Sell is attending a 
funeral. If you want to be unfair and unbalanced, go ahead. I 
think we ought to be fair and balanced, and when I held 
investigative hearings, I always had people on both sides 
testify, and if they couldn't come, we rescheduled the hearing 
so that everybody could see exactly what the issues were, 
starting with the Committee Members.
    Chairman Miller. Well, Mr. Sensenbrenner, you were not part 
of the telephone conversations that I was part of with the 
Department of Energy, and if you were under the impression that 
they were eager to have Mr. Sell come and appear before this 
committee, my experience is no, that that is not the case.
    Mr. Sensenbrenner. Well, reclaiming my time, of course, 
when we are investigating them they are not eager to have 
somebody appear before the Committee. My point is we ought to 
listen to both sides, and by going ahead with this hearing, you 
are not going to listen to both sides.
    Chairman Miller. My immediate concern is the convenience of 
several witnesses who have come to Washington today. Mr. 
Lampson, you wish to be recognized as well.
    Chairman Lampson. Well, and that is the point.
    Mr. Sensenbrenner. Well, it is my time, and I yield to the 
gentleman from Texas.
    Chairman Lampson. Thank you, Mr. Sensenbrenner. I, too, was 
concerned about the folks that had already been scheduled. I 
just wanted to ask of whom we had heard or to whom the 
statements from the Department of Energy were directed so that 
we could know about the request for postponement. And it is 
going to be only a postponement. We will have Mr. Sell here on 
August the 1st.
    Mr. Sensenbrenner. Reclaiming my time, this all goes to 
show that because the Majority wants to attack the Department 
of Energy, I guess we are going to have two hearings to attack 
the Department of Energy when we could very easily have done it 
with one and have both sides speak and have both sides on the 
witness stand at the same time and Members of the Committee can 
ask questions to actually get to the bottom of this. From 
everything I know the problem is DOE headquarters. It is not 
the DOE personnel that is down at SREL, and the only way we are 
able to get DOE headquarters to be able to testify 
knowledgeably is to have Mr. Sell here.
    I have made my point. It is now up to the Majority to 
decide whether we are going to have a fair and balanced hearing 
or not, and I see my time is up.
    Chairman Miller. Thank you, Mr. Sensenbrenner. Mr. Inglis.
    Mr. Inglis. Mr. Chairman, I do recognize the significance 
of Mr. Sensenbrenner's questions. I think they are well placed 
before this committee, before the Chairs to--the hearing goes 
forward. It is, I think, important to get to the bottom of 
these things. I wish that we were having a balanced hearing 
here, and it is important to find out what is going on. For 
more than 50 years the Savannah River Ecology Lab at the 
University of Georgia has been a helpful resource as I 
understand it to the Savannah River Site. Savannah River 
Ecology Lab's research projects and educational outreach 
activities help Savannah River Site understand the ecological 
impacts of the site's operations.
    Today we will hear from several witnesses, not as many as 
we would like to hear from, who will attest to the usefulness 
of the lab's projects, both to SRS and to the surrounding 
community. And they will assert the need to continue funding 
these programs.
    I look forward to hearing their testimony. I also look 
forward to hearing what the Department of Energy has to say, 
and I yield back the balance of my time.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Thank you, Mr. Chairman, for holding this joint hearing.
    For more than 50 years, the Savannah River Ecology Lab (SREL) at 
the University of Georgia has been a helpful resource to the Savannah 
River Site (SRS). SREL's research projects and educational outreach 
activities help SRS understand the ecological impacts of the site's 
operations.
    Today, we'll hear from several witnesses who will attest to the 
usefulness of SREL's research projects to both SRS and the surrounding 
community, and the need to continue funding these programs. I look 
forward to hearing their testimony.
    Thank you again, Mr. Chairman, and I yield back the balance of my 
time.

    Chairman Miller. Well, again, Mr. Sensenbrenner said it is 
for the Majority to decide. I would like to take a quick recess 
for Mr. Sensenbrenner to discuss this matter on the Minority 
side and with the Minority staff, because, again, my 
understanding of what has happened is different from what Mr. 
Sensenbrenner just said. I am not accusing Mr. Sensenbrenner of 
misrepresenting the facts. I think perhaps our understanding is 
different.
    And I would like to take a brief recess, and I also would 
like to inquire quickly, and we are looking at a really long 
hearing if we try to do everything in one day. The hearing in 
less than two weeks is three panels of the Department of 
Energy, and this is today three panels if we count 
Representative Barrow.
    We, I have a long line of questioning prepared to go to Mr. 
Barrow's credibility as a witness, but my staff has advised me 
that is probably not appropriate. But for the other Members who 
are, the other witnesses who are here, I know it was not 
convenient to come to Washington. It would not be convenient to 
come back a second time, but what is your availability on 
August 1? Because I would rather have this hearing be about the 
decision and the conduct of the Department of Energy, not about 
procedural fairness.
    What is your availability? How inconvenienced will you be? 
I know you are all sitting on the front row. Could you, those 
who are set to testify in later panels today.
    Mr. Bertsch, what is your availability on August 1? I am 
sorry. What?
    Okay. Dr. Whicker. Dr. Schnoor. I yield to Mr. Hall.
    Mr. Hall. Chairman, I appreciate your efforts to approach 
fairness here, and there would be opening statements that I 
would ask permission to give in a little bit and name other 
people that probably ought to be here that were really a part 
of the line there----
    Chairman Miller. Again, Mr. Hall, there will be a hearing 
with three panels on August 1. Three panels all from the 
Department of Energy on August 1.
    Mr. Hall. Well, I think there are at least maybe three 
other people from the Department of Energy that were either--or 
those that, under his direction that have some information that 
the Chair would value, and Members of this panel in arriving at 
your decision.
    Chairman Miller. The reason, again, Mr. Sell was scheduled 
to testify today. It is his schedule, and I am----
    Mr. Hall. Yeah, and I recognize that.
    Chairman Miller.--sympathetic to his need to attend the 
funeral of someone close to him, but Mr. Sell was more than 
politely invited.
    Mr. Hall. I don't question that, and these gentlemen have 
indicated that they could come back.
    Chairman Miller. Well, actually, the two witnesses who will 
testify to the value of the research at the lab, I mean, I 
assume the Department of Energy, if they wish to tell their 
side of the story, it has to, with the negotiations with the 
lab about funding. And for that Dr. Bertsch has said that he 
believed he could come back. But it would, but the two 
scientists who are familiar with the work of the lab have 
traveled some distance to be here, and we have heard one of 
them say that he would have to interrupt a family vacation to 
come back on August 1.
    Mr. Hall. I don't like to do that.
    Chairman Miller. Well, I wouldn't like to do that either. 
Mr. Sensenbrenner, if Mr. Bertsch comes back and that the 
testimony be, and I am not terribly concerned about Mr. 
Barrow's schedule. I believe he is probably going to be in 
Washington regardless, but the two scientific witnesses could 
testify today, and we could hold Mr. Bertsch to testify on 
August 1. It would be a long day of hearings.
    Mr. Sensenbrenner. If the Chairman would yield----
    Chairman Miller. I do yield.
    Mr. Sensenbrenner.I don't think the issue is the scientific 
value of what has been done at SREL. I can stipulate to the 
fact that the scientific value is there. The issue is why the 
DOE headquarters had a different view of the DOE personnel that 
were on site, and that is what we ought to be investigating. 
Now, you know, I would ask unanimous consent that the witness's 
prepared statements at today's hearings be included in the 
record, and if, you know, we want to get to the bottom of this, 
I think we ought to be looking into what went on at DOE 
headquarters on this.
    You know, I guess, you know, my point is, is that when Dr. 
Sell, you know, could not appear because of the necessity of 
him attending the funeral, there should have been sensitivity 
on the part of the Majority staff to reach a decision on 
whether to go ahead with this hearing before the witnesses 
ended up leaving wherever they were to come to Washington, D.C. 
You know, I certainly don't want to inconvenience them, but I 
do want to make sure, you know, that we have a fair and 
balanced hearing.
    I thank the Chair for yielding.
    Chairman Miller. All right. If Dr. Bertsch can come back on 
August 1, I believe that the contested, the factual issues, 
contested, disputed factual issues all have to do with Dr. 
Bertsch's testimony.
    Mr. Sensenbrenner. That is true.
    Chairman Miller. Not with the testimony of Dr. Schnoor and 
Dr. Whicker, who will testify to the value of the scientific 
research done at this laboratory.
    Chairman Lampson. Mr. Chairman, may I be recognized----
    Chairman Miller. Mr. Lampson.
    Chairman Lampson.--for a request? Can we take a five-minute 
recess and discuss this?
    Chairman Miller. We can take a five-minute recess. The 
Subcommittees will be in recess for five minutes.
    [Recess.]
    Chairman Miller. We are back in order. The first I had 
heard from anyone from the Minority, from the Minority Members, 
from Minority staff, from the Department of Energy, that there 
was any complaint at all about this hearing going forward was 
Mr. Sensenbrenner's opening statement. I am not hard to find. I 
have found Mr. Sensenbrenner on the Floor to discuss matters 
before this committee. I have tried to consult with him. I 
think that is the way to proceed in a collegial fashion, as 
cooperatively as we can. His locker is across from mine in the 
House gym. We see each other. We talk. The first I have heard 
of any objection at all to today's hearing was in the opening 
statement.
    Now, Dr. Bertsch has said that he can come back. Dr. 
Bertsch, your testimony is very important. We need you back. I 
believe that the only factually-contested issues pertain to 
your testimony, Dr. Bertsch, and we will take that up on August 
1.
    The Department of Energy, it was my personal experience, 
not just what I heard through staff but my personal experience 
is the Department of Energy has been less than cheerful in 
dealing with this issue. We need your documents, we need all 
that we have requested. We don't need them in dribbles and 
drafts. We need the rest of what we have requested, and we need 
them well before August 1 so our staff has a chance to review 
them thoroughly so that everyone, the Minority, is prepared to 
ask questions of Dr. Bertsch, we are prepared to ask questions 
of the Department of Energy, everyone is prepared for the next 
hearing.
    But Dr. Bertsch's panel today will be postponed until 
August 1, which will be a long day. I also encourage the 
Minority Members to talk to the Minority staff, because my 
understanding, again, of what has happened with respect to this 
hearing is very different from what has been represented here.
    Mr. Sensenbrenner. Will the gentleman yield?
    Chairman Miller. I will yield in a moment. And it is the 
first that I have heard the Department of Energy objected in 
any way with going forward with this hearing as scheduled 
today. We will go forward on August 1. There will be four 
panels, three that we have already scheduled, the 
representatives of the Department of Energy and Dr. Bertsch. 
And we will hear the factual discussion of what happened, how 
the decision was made.
    Today we will hear from Representative Barrow, and we will 
hear from the two scientific witnesses who can testify to the 
value of this lab's work.
    Now, I now yield to Mr. Sensenbrenner.
    Mr. Sensenbrenner. Well, let me say that it is not my 
intent to further inconvenience the two scientific witnesses, 
except to reiterate the point that the scientific value is not 
the issue that is in contention, that we are investigating.
    What I will say is that I was not aware of Mr. Sell's 
personal problem where he had to leave town for a funeral until 
late last night or the first thing this morning. I was not in 
the gym this morning working out. I didn't see the Chairman 
there. But, you know, let me say in order to make sure that we 
do have a complete record, it is my hope that on the August 1 
hearing that in addition to Mr. Sell that the Chair call 
Charlie Anderson, who is the principle Deputy Assistant 
Secretary for the Office of Environmental Management, and Jill 
Sigal, who is the former Assistant Secretary of Energy for 
Congressional and Intergovernmental Affairs. She has left the 
DOE in April of 2006, but she was around and dealing with this 
at the relevant time when the decision was made.
    I would hope that if we are accommodating to the Majority 
and going ahead with the hearing today, that they would be 
accommodating to us in having all three of these individuals as 
Minority witnesses. Failing that, the Minority will have no 
opportunity except to invoke that part of the rule that allows 
for a Minority day of hearings. Then we end up having three 
hearings on this, whereas if the Majority were sensitive, we 
could have rolled this all into one.
    And I yield back.
    Chairman Miller. And Mr. Sensenbrenner, all those witnesses 
are scheduled is my understanding, are scheduled on August 1. 
So we should hear from everyone. If the Minority has other 
witnesses to suggest, we certainly are willing or we certainly 
will try to accommodate the Minority and to have a procedurally 
fair hearing, that our inquiry into this will be procedurally 
fair. That does not mean the Department of Energy will like the 
outcome, but we will, it will be procedurally fair.
    And, again, I am not that hard to find. My office has a 
telephone number, all the Members have a directory of all of 
our offices' telephone numbers. I have a Blackberry. I actually 
read my messages, somewhat compulsively like most people who 
have Blackberries. I am easy to find on the Floor. It is not 
hard to find me, and I believe that our staff talks constantly. 
The Minority and the Majority staffs talk constantly.
    Mr. Lampson.
    Chairman Lampson. Thank you, Mr. Chairman. I just want to 
express my chagrin at this. There hasn't been very much 
fairness up to this point on DOE, and there has been, there 
have been many things said and many actions made that many 
people are finding absolutely abhorrent. SREL has been treated 
unfairly. I think they should be able to tell their story to as 
best as possible get us prepared for those future hearings.
    It disappoints me to hear the kind of things that we are 
hearing here this morning. To me there has not been balance in 
the way the budget or the people at SREL have been treated. The 
budget has been cut, people have been terminated, jobs have 
been lost as of June the 29th, I believe. There is the 
potential for significant amount of data that has been 
continuously gathered since 1951, to not be able to be 
gathered, and the longer that we wait before, as I said 
earlier, this mystery begins to unfold, the harder it is going 
to be for it to be put back together again, and the potential 
for valuing what is going to be potentially lost.
    So if we postpone this based on a technicality, and I think 
that we were notified on Wednesday, the 12th of July, that Mr. 
Sell would have to be out of town for a funeral, today is the 
17th, so that was five days ago. I am not going to say that 
there have been additional shenanigans being played, but I 
think the question of fairness on the part of that agency, to a 
lot of lives and to a lot of information that means a great 
deal to the lives of citizens across the United States of 
America, is at least questionable.
    It disappoints me very significantly that an issue like 
this would be raised in the manner in which it has been raised. 
I for one am embarrassed with it, and I think that this 
committee should be.
    I will yield back my time.
    Chairman Miller. I think we have had opening statements of 
a sort from the Chairs and the Ranking Members of both of the 
Subcommittees. If any other Member has an opening statement, we 
will welcome that in writing for the record.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. Mr. Chairman, thank you for calling this hearing to 
examine the past and current work of the Savannah River Ecology 
Laboratory (SREL) and the events leading up to the current funding 
crisis.
    SREL was established to track the ecological changes and 
environmental consequences of establishing nuclear weapons production 
facilities on the Savannah River Site (SRS). SREL evaluates the effects 
of SRS operations through a program of ecological research, education, 
and outreach involving both basic and applied environmental processes 
and principles. SREL has a distinguished record of publications, with 
the research staff publishing more than 80 articles in peer-reviewed 
scientific publications annually, and an astounding amount of unbroken 
data sets on the ecology of the site.
    I am concerned that in the past few years, the Bush 
Administration's budget requests have decreased funding and, at one 
point, called for an elimination of funding all together for this 
important laboratory.
    Further, I am concerned the cooperative agreement reached on 
December 1, 2006 between the Department of Energy (DOE) and SREL did 
not fully disclose the terms and scope of the ``technical peer review'' 
system. It was not until months later that the term was properly 
defined by the DOE. As a result of the scope and standards of the new 
technical peer review system, the DOE was able to drastically cut 
projects and informed SREL that only $800,000 of its proposed $3 
million in work would be funded. Due to the lack of DOE projects 
funded, the University of Georgia reduced the personnel at the lab and 
currently employs 30-40 individuals on site to carry out work funded 
through grants already in place from other agencies. I am interested in 
hearing from Dr. Bertsch why SREL signed the cooperative agreement; 
what SREL's understanding of ``technical peer review'' was; and how the 
DOE's implementation has affected their ability to complete projects.
    Mr. Chairman, because of the significant impact of the DOE's 
decision to withdraw funding for the laboratory, I look forward to 
hearing from our witnesses their thoughts regarding the events leading 
up to the funding crisis, the decision to withdraw funding, and the 
future of SREL.

    [The prepared statement of Mr. Barrett follows:]
         Prepared Statement of the Honorable J. Gresham Barrett
             Third Congressional District of South Carolina
                     U.S. House of Representatives
    Chairman Miller and Ranking Member Sensenbrenner, thank you for 
allowing me the opportunity to share my thoughts regarding the Savannah 
River Ecology Lab with you. I also appreciate the work you are doing to 
find a practical solution which will allow the lab to continue to 
operate.
    As you are probably aware, the Savannah River Ecology Lab (SREL) is 
located on the Department of Energy's Savannah River Site (SRS) in 
South Carolina. The only laboratory of its kind in the Department of 
Energy's (DOE) complex, the SREL has been operated by the University of 
Georgia since its 1951 founding by Dr. Eugene P. Odum. At that time, it 
was tasked and funded by the Atomic Energy Administration, DOE's 
predecessor, to perform the ecological baseline studies on the Savannah 
River Site. Over the past fifty-six years, the SREL's mission has 
evolved to include not only an independent evaluation of the ecological 
effects of nuclear activities at SRS, but also internationally 
recognized research, education, and public outreach programs.
    I am proud to represent the Third District of South Carolina in 
which the lab is located, and I have been fortunate to see firsthand 
the valuable work that the SREL does. As an independent laboratory 
staffed with university scientists, the SREL provides a thoughtful and 
unbiased evaluation of the effects of SRS operations on the environment 
and helps to ensure the safety of the surrounding community. Today, as 
environmental cleanup becomes an important part of the overall SRS 
mission, we believe the operation of SREL remains critical and will 
continue to provide valuable information related to the long-term 
stewardship issues at the site.
    Throughout the lab's existence, SREL has also been highly-touted 
for its insightful research and education on subjects such as 
remediation and the effects of environmental contamination, restoring 
degraded habitats, and environmental stewardship. It is home to award-
winning scientists who have authored more than 3,050 scientific journal 
articles as well as approximately 50 books since its founding, and 
students from universities across the United States have studied, co-
authored peer reviews, and developed their dissertations based on 
research at SREL. Without a doubt, as interest in nuclear energy 
continues to increase worldwide, the value of the scientific work being 
done at the SREL will only grow in importance.
    In addition to the essential research being done at the lab, the 
SREL provides important Environmental Outreach programs to individuals 
and families of the Central Savannah River Area (CSRA). Each year, the 
lab creates greater awareness of the diverse ecosystems of the SRS 
among children and adults across the region by offering Ecotalks, live 
plant and animal exhibits, and tours open to the public. Additionally, 
the SREL outreach programs supply informative materials regarding basic 
ecology and biology to students and teachers throughout the CSRA and 
even nationally, greatly enriching students' understanding of the 
sciences.
    As you can see, for over 56 years, the Savannah River Ecology lab 
has served the SRS, South Carolina, and the Nation through innovative 
research and outreach. Because of its strong track record, the lab has 
received strong bipartisan support from both the South Carolina and 
Georgia delegations in the House of Representatives and the Senate. I 
continue to be a proponent of the work the lab does and am saddened by 
the situation it finds itself in today. While there has been much 
argument as to who is at fault, it is my hope that the Department of 
Energy, the University of Georgia, SREL, and Congress can work side-by-
side to find a solution that will allow the lab to continue to serve 
our country through its threefold mission of research, education, and 
outreach. I look forward to any insight this committee may be able to 
provide on the matter and again thank you for allowing me to submit my 
statement.

    Chairman Miller. And now the Chair will recognize Honorable 
John Barrow, who represents the district that includes the 
University of Georgia campus and the communities that border 
the Savannah River Site, who has devoted a great deal of his 
time and energy, effort to protect the lab's work and to insure 
its future.
    And I want to thank him for bringing this, his role in 
bringing this to our, to the Subcommittees, the two 
Subcommittees' attention, and we look forward to his testimony 
today.
    And, Mr. Barrow, I am somewhat disappointed. We usually 
place witnesses under oath and remind them of the penalties of 
perjury, but for whatever reason we are not doing that with 
respect to you.
    Mr. Barrow.

                                Panel I:

STATEMENT OF HON. JOHN BARROW, A REPRESENTATIVE OF THE STATE OF 
                     GEORGIA, 12TH DISTRICT

    Mr. Barrow. Thank you, Chairman Miller, thank you, Chairman 
Lampson. All right. Well, that is the one I started out with, 
but someone turned this one away and turned that, flipped that 
other one on.
    Thank you all for calling this hearing. In the interest of 
full disclosure, I don't represent the University of Georgia 
campus any longer, but I do represent the part of this country 
that is probably most affected by the ongoing work, that is the 
entire watershed from the fall line at Augusta all the way down 
to the mouth of the Savannah River at the city of Savannah.
    I share that interest with my colleagues in South Carolina, 
Gresham Barrett, Mr. Inglis to a certain extent, and Joe Wilson 
down at the other end.
    I want to try and put in my words what it is I think we are 
dealing with here, what it is I think we have here, and what I 
hope we will take away from this.
    First of all, what we are dealing with here. Over half a 
century ago our country embarked at the height of the Cold War 
on a technological building boom to build the weapons that we 
would use to win the Cold War. Now, we either use them by 
dropping them or use them by not dropping them. It was our fear 
that we might have to drop them, in which case we would all 
lose, but it was our hope and our expectation that if we had 
them, we wouldn't have to use them. And we embarked on a 
building plan that rivals nothing that we have seen in this 
country before or since, and it took place at places like the 
Savannah River Site, took place at Hanford, took place at Oak 
Ridge, Los Alamos, all over the country this was going on.
    This was a building program that involved buying up a whole 
bunch of land so we could put buffers between the people and 
the work that was being done there. We are talking about dirty 
work that had never been done before, on a scale that had never 
been imagined before, with consequences we never faced before, 
and that is what we started to do about half a century ago.
    It was all a non-peer-reviewed work done by Government 
contractors submitting the lowest bid. At the same time there 
was a fellow who had a vision about how to deal with, at least 
to monitor the situation by the name of Eugene Odum. He was 
literally the father of modern ecology, wrote the book, 
practically invented the word, certainly is the guy who was 
responsible for the words, currency and usage, in everyday 
English.
    Dr. Odum had a vision. His vision was something along these 
lines. This is something that is worth watching, this is 
something that needs watching, and here is an opportunity to 
watch it that we have never had before. It is worth watching 
because we were involved in all kinds of dirty work on hundreds 
of square miles, ascribed a watershed, and what was going on 
there wasn't just going on. It was going on all over the 
country.
    Now, Congress adopted this vision way back in 1972, when we 
first adopted the National Environmental Research Parks 
Program. The Savannah River Site was the first National 
Environmental Research Park, and this ain't a park like the 
kind of parks we are used to. This isn't a park where folks can 
go. It is a park where animals wander in and wander out. It is 
a park where water and the ceaseless cycle of waters comes and 
goes. It is a park that was supposed to be open to scientists 
in the words of the DOE as a protected outdoor laboratory where 
long-term projects can be set up to answer questions about what 
we are doing on this scale and in places like this.
    These are parks that are unique in the words of the DOE 
because they provide opportunities for research to study the 
compatibility of the environment with energy technology 
options. That is fancy words to say can we survive doing what 
we are doing here? Or are we going to kill ourselves in the 
process? Are we going to poison ourselves in order to keep 
ourselves from being blown up?
    Again, these are parks, but they are not real parks. These 
are parks that are closed to people but supposed to be open to 
scientists.
    Now, the thing I want to emphasize is when the DOE talks in 
sort of fancy language about how these are places where you 
can, a protected outdoor laboratory. This is a normative 
statement. This is something we ought to have. We are actually 
conducting great big old laboratories. These are laboratories, 
in fact, whether we like it or not. We are conducting 
experiments on a scale that has never been done before. The 
industrial generation of nuclear waste and its ponding and 
pooling and amassing in these places is something that has 
never been done before. We are experimenting like crazy in 
these seven places around the country, and whether or not we 
recognize it and treat it as a laboratory is up to us. But 
whether or not it really is a laboratory, where we are doing 
things that have never been done before, playing God in ways 
that have never been done before, that is a fact. And Congress 
recognized that back in 1972.
    The only issue here as I see it is not whether or not 
scientists are going to be allowed to run the lab. It is still 
going to be run by bean counters accountable to politicians. 
The question is not whether scientists are going to be allowed 
to run the lab. The question is whether or not there are going 
to be scientists actually in the lab watching what is going on 
on a continuous basis.
    Now, these parks are, in the words of the DOE, a unique 
asset to the country. SREL is unique because it is the only 
institution in the entire country where we have actually been 
monitoring and treating it like a laboratory from the very get 
go. It is the only place in the country where we have set data 
to, data sets to use the term, where we know what has been 
going and watching what has been going continuously from the 
beginning.
    And so it is unique. It has a unique role to play for all 
the others.
    It is also unique because it sets astride an ecosystem that 
has more complexity and more diversity than any of the others. 
If we can get it right, if we can understand what is going on 
in the euphemistically referred to Southeastern Mixed Forest, 
swamp, pine, slash, you name it. If we can figure out what is 
going on there, we can figure out what is going on in shrub 
step, we can figure out what is going on in Juniper, Penyan, 
and Grassland, we can figure what is going on in all the other 
places where environmentally speaking it is a cakewalk compared 
to the complexity and the diversity of what is going on in 
Savannah River.
    So what I am trying to do is set the stage and point out 
that this has enormous implications beyond just the local. This 
isn't just a question, although it is a question, of the way we 
treat the employees and the loyalty and the support we given 
the folks that are doing this work. It is not just that. That 
is important to me, it is important to Gresham Barrett. It is 
not just important to the immediate environmental watershed of 
the Savannah River. That is important to me, it is important to 
Barrett, it is important to Inglis, and it is important to 
Wilson and the Senators on both sides. It is about trying to 
maintain and monitor the lab, and the one place where we have 
been doing this from the very get go so that we don't lose 
sight of that vision.
    We have got to watch what is going on so we don't poison 
ourselves in the process of not blowing ourselves up.
    Now, what do we have here? What I think we have here is a 
five-year plan to defund the SREL by folks who basically think 
it ought to be converted into any other kind of commercial 
contractor, sort of a gigantic Serve Pro, bidding for some of 
the cleanup work at the Savannah River Site.
    Now, with all due respect to the Serve Pro folks, I 
acknowledge what they do, but this is not that kind of mission. 
This is not that kind of asset. It is not that kind of legacy.
    What we also have here is a failure to communicate, and you 
are all going to get to that, and I encourage you all to get to 
the bottom of it. What I hope we will take away from this, let 
us talk about what I want to take away from this series of 
hearings. This is not about the jobs in the area, although that 
is important. It is not about the immediate environmental 
impact, although that is important. And it is certainly not 
about Dr. Odum's legacy. That gentleman's--I knew the man. He 
was the greatest man I have ever met, the most brilliant and 
unassuming person you will ever know. He is an amazing fellow, 
but his legacy is established far beyond our poor power to add 
or detract.
    It is about, though, the work of his hands, which is still 
running there and which serves as the only institution that has 
been doing this work from the very beginning and do it in the 
one place where if you can do it no place else, it has got to 
be done there for the benefit of all these National 
Environmental Research Parks around the country.
    It is about, try to take our cue from Dr. Odum. Dr. Odum 
did anything in his life. He helped us understand the 
connections between things and the importance of things that we 
took for granted and the importance of the little things, the 
little things that we didn't really think much about until they 
were gone. If we can take anything away from this, if we would 
apply Dr. Odum's vision toward this problem, then the temporary 
elected officials who occupy this political nitch for the time 
being can preserve and protect something that we badly need 
everywhere. We ought to expand and have SREL in all of the 
National Environmental Research Parks. That ought to be what we 
take from this is a commitment to expand this elsewhere.
    But if we can take his vision, the appointed officials and 
the elected officials who are occupying this little nitch for 
just the time being won't destroy something that needs to be 
protected. We can actually preserve it, enhance it, and that I 
think is what we really need to do.
    I thank the Chairman for the courtesy of allowing me to 
speak here. I thank you all for your stick-to-it-iveness, and I 
know I have talked too much. I will yield back whatever time I 
may have left.
    [The prepared statement of Mr. Barrow follows:]
            Prepared Statement of Representative John Barrow
Chairman Miller, Ranking Member Sensenbrenner; Chairman Lampson, 
        Ranking Member Inglis, and Members of the Committee:

    Thank for holding this hearing and thank you for inviting me to 
appear before you today.
    I am extraordinarily concerned with recent actions by the 
Department of Energy that I understand have drastically reduced the 
adequate, stable, and mission-based funding for the Savannah River 
Ecology Laboratory and have caused the Laboratory, for all practical 
purposes, to close.
    Over the past five years, the Department's support for the Lab has 
been drastically reduced and manipulated, while the University of 
Georgia, which manages the Laboratory, has continued to uphold its end 
of the financial bargain that has kept the SREL going over the years.
    It seems evident to me that the Department of Energy's policy of 
reducing funding for the Savannah River Ecology Laboratory (SREL) is 
about to take from all of us a valuable research tool to protect our 
citizens and our environment. I am convinced that the need for 
sufficient and sustained Laboratory funding from the Department is 
crucial. The Department's drastic reduction in funding, and the 
processes they employed in reducing funding, have come under increased 
scrutiny recently, we must learn the truth.
    I thank you and your staff for the timely and energetic 
investigation of the Department of Energy's current and past plans to 
reduce and eliminate funding for this laboratory. The more I learn 
about the situation involving the Department's SREL funding, the more 
I'm puzzled.
    After first becoming aware of the dire funding situation at SREL, 
and in my initial contacts with Secretary Bodman and his staff, I 
suggested to the Secretary that we work together to develop and plan an 
expanded, ample, and stable DOE budget that would support the 
laboratory's vital mission. The Department's response to me was vexing. 
I was told a story that didn't quite jive with the communications that 
I had received from the scientific community, local leaders, and others 
who were familiar with the situation.
    Specifically, I was told by the Department in a letter from 
Secretary Bodman's staff, that the research being conducted at the 
facility was not `peer reviewable.' When I checked on this I was 
assured by some of the top scientists in the country that the research 
at SREL was fully peer reviewable and that the quality of the research 
was top-rank. This is only one of the inconsistencies that been 
unearthed in the early stages of discovery.
    The Savannah River Ecology Laboratory, founded by Dr. Eugene Odum, 
one of the most influential figures in the history of ecology in the 
20th century, has been studying the effects of the Department's nuclear 
production and processing activities on the environment, wildlife 
creatures, and habitat at Savannah River Site (SRS) for over fifty-five 
years. Currently, the Laboratory supports cleanup missions as well as 
providing critical information related to long-term stewardship issues 
at the Department of Energy's Savannah River Site. This kind of 
research has enormous implications for the surrounding watershed, which 
includes a large part of the 12th District of Georgia, and quite 
frankly for nuclear production sites around the world.
    SREL is an independent academic laboratory that provides 
significant credibility among the general public and regulators on 
issues related to environmental impacts of nuclear facility operations, 
as well as the overall health of Savannah River Site ecosystems. 
Through its partnership with the DOE, the Savannah River Ecology 
Laboratory has established a strong international reputation for 
conducting high quality ecological research. In fact, SREL is often 
cited as an institution whose expertise and research forms the basis of 
stakeholder support critical to the Department for conducting existing 
and future missions at the Savannah River Site.
    The Laboratory is unique in its focus and mission, and the body of 
research that it has produced in over a half century of scientific 
exploration, is important not only for our country, but this body of 
work is recognized and utilized throughout the scientific world.
    To this end I believe it is critical to have an independent and 
credible source of information on how activities at our nuclear 
productions sites affect wildlife, habitats, and our ecosystems. In 
addition to its ongoing research activities at the Savannah River Site, 
SREL is the organization that has the expertise, institutional memory, 
and academic credibility to develop and implement long-term monitoring 
plans at SRS and potentially at other DOE production sites that will be 
accepted and trusted by the general public, regulators, and other 
stakeholders.
    After this investigation is concluded, and the findings published I 
would like to offer a view for the future. I would like to draw the 
Committee's attention to the issue of the best utilization of the 
National Environmental Research Parks. There are seven of these parks 
located on DOE sites throughout the country. The first one was 
established in 1972 on the Savannah River Site itself. Called the 
Savannah River Park, the site contains the greatest diversity of plants 
and animals in the entire southeastern region and has every major 
ecosystem found within the southeastern U.S. within its borders.
    DOE originally acquired large tracts of land around its national 
nuclear production sites for security. These sites have been protected 
from commercial development and public access has been controlled and 
limited to the purposes of public education and research. In 1997, 
there was a suggestion that DOE divest these properties and the 
scientific community argued passionately for their preservation because 
of their great value for research and education.
    Over the past, almost forty years, these sites have become 
ecological sanctuaries and natural laboratories unmatched in their size 
and diversity. Whether we talk about sound management of land and water 
resources, important species of animals, or better understanding and 
mitigation of the impacts of human activities on the environment, we 
must have information that has been systematically collected over many 
decades. That is exactly the type of information we have at SREL, and 
potentially this kind of research could be duplicated at these other 
National Environmental Research Parks.
    This unfortunate crisis at SREL has brought an opportunity for 
Congress to use these parks more effectively. Once we get to the bottom 
of this investigation, and we restore Savannah River Ecology Lab 
functioning, I would propose that we should have SREL-like labs 
throughout the country at these parks, and then offer this model for 
interested allies, for most nuclear production sites around the world. 
This would be a great tribute to Dr. Odum, and a fitting recognition of 
the work that has been carried out by the dedicated scientists and 
staff at SREL for the past 55 years. I wouldn't even know how to place 
a value on the body of research that has been produced at SREL, it 
certainly cannot be duplicated or replaced if this laboratory is 
shuttered.
    Instead of jeopardizing the future of valuable scientific assets 
with arbitrary and malicious budget cutting, the Department should be 
working to secure the future of these unique and valuable national 
assets that Dr. Odum foresaw these many years ago.
    Thanks again for letting me come before you today, and I'd be glad 
to answer any questions.

    Chairman Miller. And that time is a negative five minutes.
    It is not typically that Members ask questions of other 
Members, but actually I did ask questions of Mr. Hunter when he 
was here a couple weeks ago. Does any Member of the Committee 
have a question of Mr. Barrow?
    If not, Mr. Barrow, thank you very much, and I will not use 
the questions that I had going to the credibility of the 
witness.
    Our next panel we will receive the testimony of Dr. Ward 
Whicker, Professor of Radiological Health Science at Colorado 
State University. Professor Whicker, you can come forward now. 
Professor Whicker is regarded as one of the founders of the 
field of radioecology. He has had more than 98 articles 
published in peer-review journals. He is an honorary council 
member of the National Council of Radiation Protection and 
Measurements. He has also received the prestigious E.O. 
Lawrence Award in 1990, from the Department of Energy.
    And then the final witness, Professor Jerald Schnoor. If 
you could take your seat here. Dr. Schnoor is the Alan S. Henry 
Chair in Engineering at the University of Iowa. Dr. Schnoor is 
a member of the National Academy of Engineering, a member of 
the EPA Science Advisory Board. He is the editor in chief for 
the journal, Environmental Science and Technology.
    As our witnesses should know, your oral testimony, your 
spoken testimony is limited to five minutes, and the Chair may 
be a little more likely to enforce that than I was with respect 
to Mr. Barrow. And after that there will be questions from any 
Member of the Committee. It is our practice typically, except 
when we are dealing with one of our colleagues perhaps, to take 
testimony under oath. Do either of you have any objection to 
being sworn in, to swearing an oath?
    All right. You also have a right to be represented by 
Counsel. Are either of you represented by Counsel today?
    All right. And if you would please stand and raise your 
right hand.
    [Witnesses sworn]
    Chairman Miller. Dr. Schnoor, you may begin.

                               Panel III:

   STATEMENT OF DR. JERALD L. SCHNOOR, PROFESSOR, CIVIL AND 
 ENVIRONMENTAL ENGINEERING; CO-DIRECTOR, CENTER FOR GLOBAL AND 
      REGIONAL ENVIRONMENTAL RESEARCH, UNIVERSITY OF IOWA

    Dr. Schnoor. Chairman Miller and Chairman Lampson, Ranking 
Member Sensenbrenner, Ranking Member Inglis, and Subcommittee 
Members, I thank you for the opportunity to testify regarding 
the funding crisis facing the University of Georgia's Savannah 
River Ecology Laboratory located on the Department of Energy's 
Savannah River Site near Aiken, South Carolina.
    As the Chairman said, my name is Jerry Schnoor. I am a 
professor at the University of Iowa and member of the National 
Academy of Engineering, and I serve on the U.S. EPA's Science 
Advisory Board.
    As Editor-in-Chief of the leading journal in the field, 
Environmental Science and Technology, I manage the peer review 
process for thousands of scientific papers which are submitted 
each year, including several from Savannah River Lab. One of my 
personal areas of research is groundwater and hazardous wastes 
remediation, especially phytoremediation. That is the use of 
plants to try to help clean the environment. It is a promising, 
long-term technology for some contamination problems at the 
Savannah River Site as well.
    I do not have any public or private research grants related 
to SREL stock or stock options held in publicly-traded or 
privately-owned companies, nor have I received any form of 
payment or compensation from any relevant entity connected with 
this testimony.
    Therefore, I hope and believe that I am qualified to 
testify about the quality and importance of the scientific 
research being performed at the Savannah River Lab and its 
relevance to DOE's strategic initiatives.
    The information I am providing is based largely on my 
professional interaction with SREL faculty and a visit to the 
laboratory, a review of the institution's publication and 
history, and other DOE documents that are readily available in 
the public record.
    Due to time constraints, greater detail and additional 
supporting information and documentation has been provided in 
my written testimony, and I ask that it be read into the 
record.
    Since its founding in 1951, SREL's research emphasis has 
constantly evolved to meet the changing needs of DOE and SRS in 
particular in my opinion, which is reflected in even a cursory 
review of SREL's scientific publications and their site 
reports.
    In response to a growing cost associated with environmental 
cleanups at DOD and DOE sites, the National Academy of Science 
has issued a report entitled, Groundwater and Soil Cleanup: 
Improving Management of Persistent Contaminants, by the 
National Research Council in 1999. In the report the committee 
clearly recognized the value of the Savannah River Ecology Lab, 
noting, ``Ecological risks are better characterized at the 
Savannah River Site than at other DOE installations, due in 
part to the designation of the site as a National Environmental 
Research Park and the presence of the Savannah River Ecology 
Laboratory.''
    Despite such praise, the discussion concerning the current 
funding crisis has directly called into question the technical 
expertise of the SREL faculty and indirectly the overall 
quality and relevance of its research.
    First, I want to address some misconceptions concerning the 
type of research conducted at SREL. Over the last decade or so 
there has been a clear shift in research emphasis at the lab 
with an increasing focus on contaminant fate and transport, 
largely in response to a more focused DOE cleanup mission. SREL 
faculty have demonstrated expertise in several active fields of 
research that are directly relevant to the Savannah River Site 
remediation efforts.
    In addition to the clear practical benefit, SREL's support 
for the SRS pump-and-treat system resulted in four refereed 
articles in ES&T, my journal, two in Vadose Zone Journal, one 
in Groundwater, and one in the Journal of Contaminant 
Hydrology. In addition, SREL researchers have developed three 
other patented technologies, including a system that combines 
both contaminant immobilization with phytoextraction, the use 
of plants. And they have submitted initial paperwork for an 
automated environmental monitoring system.
    The Savannah River Lab also plays an important role in the 
regulatory process by providing independent scientific 
credibility necessary for site management to propose and 
receive approval for alternative, cost-effective remediation 
strategies. In some instances SREL faculty have been asked to 
accompany site contractors to regulatory negotiations in case 
certain questions arise for which their technical expertise is 
required.
    Mr. Chairman, my candid overall opinion is that the 
Savannah River Ecology Laboratory is providing the DOE and the 
Nation with high quality research in a very cost effective 
manner. It has long been recognized as perhaps the foremost 
land in terrestrial ecology in the country, and in recent years 
it is performing extremely useful research related to the date, 
transport, effects, and remediation of chemical contaminants 
relevant to SRS.
    During the past 30 months alone, Savannah River Lab 
researchers have published eight rigorously peer-reviewed 
journals in ES&T, my journal, on nickel, uranium, mercury, 
radio-cesium, and lead, all important contaminants at the site. 
In light of these accomplishments, I strongly believe that 
SREL's funding should be continued. The survival of the 
Savannah River Ecology Lab as an independent academic 
institution on the Savannah River Site ensures that long-term 
management and remediation strategies and scenarios will be 
developed and implemented based on independent, verifiable 
science.
    Thank you very much.
    [The prepared statement of Dr. Schnoor follows:]
                Prepared Statement of Jerald L. Schnoor
    Chairman Miller and Chairman Lampson, Ranking Member Sensenbrenner, 
Ranking Member Inglis, and Subcommittee Members: I thank you for the 
opportunity to testify regarding the recent funding crisis facing the 
University of Georgia's Savannah River Ecology Laboratory (SREL), 
located on the Department of Energy's Savannah River Site (SRS), near 
Aiken, SC.
    My name is Jerry Schnoor. I am Professor of Civil and Environmental 
Engineering and Occupational and Environmental Health, and Co-Director 
of the Center for Global and Regional Environmental Research at the 
University of Iowa. I am also a member of the National Academy of 
Engineering, inaugurated in 1964 to provide technical advice to the 
Nation, and I serve on the U.S. Environmental Protection Agency's 
Science Advisory Board (SAB). As Editor-in-Chief of the leading journal 
in the field, Environmental Science and Technology, I manage the peer-
review process for thousands of scientific papers which are submitted 
each year, including several from SREL. One of my personal areas of 
research expertise is groundwater and hazardous wastes remediation, 
especially phytoremediation, the use of plants to help clean the 
environment, which remains a promising long-term technology for some 
contamination problems at the Savannah River Site. I do not have any 
public or private research grants related to SREL, stock or stock 
options held in publicly traded and privately owned companies, nor have 
I received any form of payment or compensation from any relevant entity 
connected with this testimony. Therefore, I believe I am qualified to 
testify about the quality and importance of the scientific research 
being performed at the Savannah River Ecology Laboratory and its 
relevance to DOE's Strategic Initiatives.
    The information I am providing is based largely on my professional 
interaction with SREL faculty and a visit to the laboratory, a review 
of the institution's publication history and the faculty's research 
accomplishments (available on UGA website), and other DOE documents 
that are readily available in the public record. Due to time 
constraints, greater detail and additional supporting documentation has 
been provided in my written testimony.
    Since it's founding in 1951, SREL's research emphasis has 
constantly evolved to meet the changing needs of DOE and the SRS in 
particular, which is reflected in even a cursory review of SREL's 
scientific publications and site reports. In response to the growing 
cost associated with environmental cleanup at DOE and DOD facilities, 
the National Academy of Sciences issued a report entitled ``Groundwater 
& Soil Cleanup: Improving Management of Persistent Contaminants'' (NRC, 
1999). In the report, the committee clearly recognized the value of 
SREL, noting:

         ``Ecological risks are better characterized at the Savannah 
        River Site than any other DOE installation, due in part to the 
        designation of the site as a national environmental research 
        park and the presence of the Savannah River Ecology 
        Laboratory.''

    Despite such praise, the discussion concerning the current funding 
crisis has directly called into question the technical expertise of the 
SREL faculty, and indirectly the overall quality and relevance of their 
research. First, I want to address some misconceptions concerning the 
type of research conducted by SREL. Over the last decade or so, there 
has been a clear shift in research emphasis at the lab with an 
increasing focus on contaminant fate and transport, largely in response 
to a more-focused DOE cleanup mission. SREL faculty have demonstrated 
expertise in several active fields of research that are directly 
relevant to SRS remediation efforts.
    In addition to the clear practical benefit, SREL's support for the 
SRS pump-and-treat system resulted in four refereed articles in ES&T, 
two in the Vadose Zone Journal, one in Groundwater, and one in the 
Journal of Contaminant Hydrology. In addition, SREL researchers have 
developed three other patented technologies, including a system that 
combines both contaminant immobilization with phytoextraction (U.S. No. 
6719822), and they have submitted initial paperwork for an automated 
environmental monitoring system. SREL also plays an important role in 
the regulatory process by providing the independent scientific 
credibility necessary for site management to propose and receive 
approval for alternate, cost-effective remediation strategies. In some 
instances SREL faculty have been asked to accompany site contractors to 
regulatory negotiations in case certain questions arise for which their 
technical expertise is required.
    My candid overall opinion is that the Savannah River Ecology 
Laboratory is providing the DOE and the Nation with high quality 
research in a very cost effective manner. It has long been recognized 
as perhaps the foremost laboratory in terrestrial ecology in the 
country, and in recent years it is performing extremely useful research 
related to the fate, transport, effects, and remediation of chemical 
contaminants relevant to SRS. During the past 30 months alone, SREL 
researchers have published eight rigorously peer-reviewed articles in 
ES&T on nickel, uranium, mercury, radio-cesium, and lead, all important 
contaminants at the site. (The references are listed at the end of this 
written testimony.) In light of these accomplishments, I strongly 
believe that SREL's funding should be continued. The survival of SREL 
as an independent academic institution on the SRS ensures that long-
term management and remediation scenarios will be developed and 
implemented based on independent, verifiable science.
    DOE management in Washington may not be aware that SREL researchers 
have assisted in the choice, refinement, and even the implementation of 
several high-profile SRS remediation efforts. For example, SREL 
researchers actively supported the F- & H-Area pump-and-treat 
groundwater remediation system, the Mixed Waste Management Facility's 
(MWMF) tritium remediation system, the 488D Ash Basin reclamation, and 
reclamation and closure of the SRL basins to name a few. SREL research 
was used in designing the water treatment facility for the $120 million 
dollar F- and H-Area pump-and-treat operation. These efforts further 
led to the development of a patented pump-and-treat technology for 
enhancing the extraction of contaminants from aquifers (U.S. No. 
5,846,434).
    As documented in the latest renewal of the Cooperative Agreement, 
SREL research ``provides a further understanding of the environmental 
effects of SRS operations.'' More specifically, however, the 
Cooperative Agreement lists nine responsibilities in Appendix A, 
including the following (see the attached Appendix A from the Coop 
Agreement):

         SREL will assess the impact of site operations on the 
        environment, and will continue to provide the public and DOE 
        with an independent view of the environmental management of the 
        SRS.

         SREL will continue basic and applied environmental research 
        with emphasis upon expanding the understanding of ecological 
        processes and principles, and upon evaluating the impacts of 
        site activities, new missions, and land use practices on the 
        environment.

         SREL will use the information collected in the environmental 
        research to develop and test hypotheses that will contribute to 
        the scientific foundation necessary to conduct meaningful 
        ecological risk assessments and to understand the environmental 
        consequences of energy technologies, remediation efforts and 
        other SRS activities.

         SREL scientists will work closely with SRS personnel to assist 
        DOE and other SRS contractors in making wise and informed 
        decisions concerning land and facilities management. SREL will 
        continue to publish its scientific findings in peer-reviewed 
        scientific journals to aid the public and to assist DOE in 
        making policy decisions by providing a basis of independent, 
        verifiable science.

    Although SREL is well positioned to fulfill these responsibilities 
and more, one must note the inconsistency between the language of 
Appendix A and the assertion that all DOE funding will be provided only 
on a task-by-task basis based on ``mission critical'' needs in the 
current year. Two obvious questions quickly come to mind.

         How does DOE define mission critical needs?

         Through what process does DOE review SREL's research 
        activities to determine if they are consistent with such needs?

    In preparing for today's testimony, I studied the research task 
matrix that DOE instructed SREL to provide for the FY07 ``funding 
review'' (see attachment), and compared it with the April 2007 Draft 
version of the DOE-Office of Environmental Management's Engineering & 
Technology Roadmap: Reducing Technical Risk and Uncertainty in the EM 
Program, which is available on the DOE-EM website (http://
www.em.doe.gov/pages/emhome.aspx). As noted in the document's 
introduction (see attachment), the Technology Roadmap was developed by 
DOE-EM, Deputy Secretary for Engineering and Technology, Mark 
Gilbertson, under Congressional direction within the FY 2007 House 
Energy and Water Development Appropriations Report to identify 
technology gaps and develop a strategy for funding proposals that 
address such needs.
    It is clear that several ongoing SREL research programs (e.g., 
support for the tritium phytoremediation facility and characterization 
of grouts and other engineered waste isolation materials) and the 
proposed research tasks included in the task matrix, indeed, directly 
address many of the strategic initiatives identified in the DOE-EM 
Technology Roadmap.
    The local public's response to the SREL funding crisis is 
indicative of the areas general support for DOE activities, a support 
that I contend has been fostered by SREL's presence on the site since 
it was established in the 1950s. Given this support, I want to draw 
attention to the general consistency between the DOE-EM Technology 
Roadmap and the NRC report drafted almost ten years earlier. Both 
documents clearly indicate that we lack the technical expertise 
required for the safe and cost-effective cleanup of the legacy wastes 
and facilities in the DOE complex. As the Roadmap notes:

         ``. . . the remaining [cleanup] challenges will require a 
        strong and responsive applied research and engineering 
        program.''

    Although considerable progress has been made in the last decade, 
the DOE-EM Roadmap acknowledges that numerous challenges remain. 
However, environmental research over the last two decades indicates 
that following some initial intervention, like removing the pollutant 
source, many environmentally degraded systems will recover through 
natural biogeochemical processes, an observation that forms the basis 
for the widely adopted concept of Monitored Natural Attenuation (MNA). 
Furthermore, adopting a costly, highly invasive remediation strategy 
can result in ecosystem disruption that is far worse than the original 
contamination. It is my opinion that SREL's presence on the SRS has 
easily resulted in continued DOE cost savings that far outweigh the 
institutions annual operating budget.
    Despite the apparent disconnect with respect to DOE-HQ's perception 
of SREL expertise, there are additional reasons for DOE to reinstate 
SREL's long-term funding. In contrast to the primary site contractors 
that must focus on more immediate management and remediation deadlines, 
often dictated by regulatory agreements, SREL's academic independence 
allows scientists to focus on more long-term remediation and 
stewardship concerns so that the required background information is 
available to support responsible decision-making now and in the future.
    Research institutions like SREL are largely evaluated based on 
publication record and external grants. Despite the recent loss of 
several faculty positions due to budget cuts, SREL has averaged 85 
refereed publications a year for the last six years, which is a very 
good rate of scientific productivity considering SREL's number of full-
time faculty and the declining budget situation. Earlier this year SREL 
reached a significant milestone with the publication of the 3,000th 
peer reviewed article. Since 1991 alone, SREL researchers have 
published 44 articles in ES&T, a journal ranked #1 in total citations 
and articles published out of 140 journals in the field of 
environmental sciences, and #4 in Impact Factor, a measure of the 
relative number of times a specific manuscript within a journal is 
cited. Even a cursory review of the article titles verifies that they 
are directly relevant to our understanding of the fate, transport, 
ecological impact, and remediation of contaminants on the SRS, 
including major contaminants of concern (COC) such as chromium, 
uranium, plutonium, cesium, tritium, and chlorinated solvents, such as 
TCE and PCE, to name a few. The same is true of the work published in 
other journals as well.
    Any summary of faculty accomplishments is sure to overlook numerous 
outstanding contributions, and so I encourage the committee to review 
the concise two-page CV's, typical of the format that is submitted with 
funding proposal, that have been attached to my written testimony. 
However, a few specific examples are worth noting that are relevant to 
the current discussion. SREL researchers have served as Associate 
Editors for the Journal of Environmental Quality, the Soil Science 
Society of America Journal, and Water Air and Soil Pollution. Members 
of the SREL faculty regularly provide scientific reviews of manuscripts 
submitted to ES&T and other scientific journals. Dr. Lee Newman is the 
Editor of the International Journal of Phytoremediation. A recent 
publication in Geochemical Transactions by Dr. A. Neal et al., (2007) 
was recognized as the most accessed paper for June 2007 and is the 
eighth most accessed for all time in the journal. Another publication 
by Neal, Rosso, Geesey, et al. (2003) was listed in top 25 most 
downloaded papers for 2003-2004 in Geochimica Cosmochimica Acta. These 
accomplishments are evidence of a vibrant and productive faculty who 
are publishing articles of high impact in the best journals in the 
world.
    Recently, Dr. John Seaman served as the guest editor for a special 
edition of the Vadose Zone Journal showcasing remediation activities at 
the SRS, and he co-authored with Drs. Mary Harris and Brian Looney of 
SRNL the introductory article entitled ``Research in support of 
remediation activities at the Savannah River Site,'' which highlighted 
collaborative research activities of SREL, SRNL, the U.S.-Forest 
Service, and other universities in addressing DOE needs. Furthermore, 
SREL research activities in support of SRS cleanup were also recently 
highlighted in several submissions to a special SRS edition of 
Environmental Geosciences. Representative from SREL have served as 
technical advisors to the Citizen's Advisory Board (CAB), a local 
independent organization established by DOE to provide local 
stakeholder input regarding operations and environmental issues 
associated with the SRS.
    In summary, SREL research activities clearly support DOE's ongoing 
site remediation and long-term stewardship goals. The lab's presence 
fosters a more open dialogue that promotes stakeholder consensus when 
choosing an eventual course of action with respect to federal lands and 
resources. As demonstrated in the past, SREL's research efforts can 
reduce the long-term cost associated with site management and cleanup, 
lessen the public's anxiety concerning possible health risks associated 
with continued site operation, improve our fundamental understanding of 
subsurface processes that can be applied to other impacted sites, both 
government and commercial facilities, and prevent or greatly lessen the 
possible impact of future site activities on the environment and the 
surrounding public. The quality of SREL's science, the faculty's 
research productivity, and the relevance of the science to the DOE and 
SRS argues strongly for continued funding of the laboratory.

Appendices:

DOE-EM Technology Roadmap (April 2007 Draft)

SREL FY07 Funding Matrix

UGA Cooperative Agreement Appendix A

Two Page Summary CVs for each SREL Faculty member

References

Van Nostrand, J.D., Khijniak, T.J., Neely, B., Abdus Sattar, M., 
        Sowder, A.G., Mills, G., Bertsch, P.M., Morris, P.J. (2007). 
        Reduction of nickel and uranium toxicity and enhanced 
        trichloroethylene degradation to Burhholderia vietnamiensis 
        PR1<INF>301</INF> with hydroxyapatite amendment. Environ. Sci. 
        Technol. 41:1877-1882.

Unrine, J.M. Jackson, B.P., Hopkins, W.A. (2007). Selenomethionine 
        biotransforamtion and incorporation into proteins along a 
        simulated terrestrial food chain. Environ. Sci. Technol. 
        41:3601-3606.

Rodriguez-Navarro, A.B., Romanek, C.S., Alvarez-Lloret, P., Gaines, 
        K.F. (2006). Effect of in ovo exposure to PCBs and Hg on 
        Clapper Rail bone mineral chemistry from a contaminated salt 
        marsh in coastal Georgia. Environ. Sci. Technol. 40:4936-4942.

Hinton, T.G., Kaplan, D.I., Knoz, A.S., Coughlin, D.P., Nascimento, 
        R.V., Watson, S.I., Fletcher, D.E., Koo, B-J. (2006). Use of 
        illite clay for in situ remediation <SUP>137</SUP>Cs-
        contaminated water bodies: field demonstration of reduced 
        biological uptake. Environ. Sci. Technol. 40:4500-4505.

Jackson, B.P., Williams, P.L., Lanzirotti, A., Bertsch, P.M. (2005). 
        Evidence for biogenic pyromorphite formation by the nematord 
        Caenorhabditis elegans. Environ. Sci. Technol. 39:5620-5625.

Shaw-Allen, P.L., Romanek, C.S., Bryan, A.L. Jr., Brant, H., Jagoe, 
        C.H. (2005). Shifts in relative tissue del<SUP>15</SUP>N values 
        in snowy egret nestlings with dietary mercury exposure: a 
        marker for increased protein degradation. Environ. Sci. 
        Technol. 39:4226-4233.

Stepanauskas, R., Glenn, T.C., Jagoe, C.H., Tuckfield, R.C., LIndell, 
        A.H., McArthur, J.V. (2005). Elevated microbial tolerance to 
        metals and antibiotics in metal-contaminated industrial 
        environments. Environ. Sci. Technol. 39:3671-3678.

Jackson, B.P., Ranville, J.F., Bertsch, P.M., Sowder, A.G. (2005). 
        Characterization of colloidal and humic-bound Ni and U in the 
        ``dissolved'' fraction of contaminated sediment extracts. 
        Environ. Sci. Technol. 39:2478-2485.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                    Biography for Jerald L. Schnoor

(i) Professional Preparation

Iowa State University, Chemical Engineering, B.S. 1972

University of Texas, Environmental Health Engineering, M.S. 1974

University of Texas, Civil Engineering, Ph.D. 1975

Manhattan College, Environmental Modeling (postdoc), 1976

(ii) Appointments

2002-present--Allen S. Henry Chair Professor of Engineering, University 
        of Iowa

1990-present--Co-Director, Center for Global and Regional Environmental 
        Research, University of Iowa

1985-1990--Chair, Department of Civil and Environmental Engineering, 
        University of Iowa

1983-present--Professor, Department of Civil and Environmental 
        Engineering, University of Iowa

1980-1983--Associate Professor, Department of Civil and Environmental 
        Engineering, University of Iowa

1977-1980--Assistant Professor, Department of Civil and Environmental 
        Engineering, University of Iowa

(iii) 5 Publications (selected from 150 journal articles, 6 books, 3 
                    patents)

Boulanger, B., J. Vargo, J.L. Schnoor, and K.C. Hornbuckle. ``Detection 
        of Perfluorooctant Surfactants in Great Lakes Water.'' 
        Environmental Science & Technology, 38(15), 4064-4070, 2004.

Boulanger, B., A.M. Peck, J.L. Schnoor, and K.C. Hornbuckle. ``Mass 
        Budget of Perfluorooctane Surfactant in Lake Ontario.'' 
        Environmental Science & Technology, 39(1), 74-79, 2005.

McCutcheon, S.C., and J.L. Schnoor, Eds. 2003. Phytoremediation--
        Transformation and Control of Contaminants. New York: John 
        Wiley & Sons. 987 pp.

Mihelcic, J.R., J.C. Crittenden, M.J. Small, D.R. Shonnard, D.R. 
        Hokanson, Q. Zhang, H. Chen, S.A. Sorby, V.U. James, J.W. 
        Sutherland, and J.L. Schnoor. ``Sustainability Science and 
        Engineering: The Emergence of a New Metadiscipline.'' 
        Environmental Science & Technology, 37(23), 5314-5324, 2003.

Schnoor, J.L. 1996. Environmental Modeling: Fate and Transport of 
        Pollutants in Water, Air, and Soil. New York: Wiley 
        Interscience, 682 pp.

(iv) Synergistic Activities

1.  Editor-in-Chief, Environmental Science & Technology, 2003-present

2.  U.S. EPA Science Advisory Board, 2006-

3.  Chair, National Research Council Colloquium, Water Implications of 
Biofuels, 2007

4.  National Research Council, Water Science and Technology Board, 
2000-2005

5.  Chair, U.S. EPA ORD, Board of Scientific Counselors, 2000-2004

6.  Distinguished lectureships:

        -  Walter J. Weber Jr. Distinguished Lecturer, University of 
        Michigan, 2004

        -  Soil Science Society of America Honorary Lecturer, Soils and 
        Environmental Quality, 2004

        -  Henske Distinguished Lecturer Award, Yale University, 2000

        -  Sigma Xi Distinguished Lecturer, 1999-2000

        -  Association of Environmental Engineering Professors 
        Distinguished Lecturer, 1998

        -  Presidential Lecturer, University of Iowa, 1996

7.  Awards:

        -  Paper of the Year 2005, Award for Integration of Human and 
        Ecological Risk Assessment, HERA Human and Ecological Risk 
        Assessment, An International Journal

        -  Soil Science Society of America, Soils and Environmental 
        Quality, Honorary Lecturer, 2004

        -  National Academy of Engineering, member, elected 1999-
        present

        -  Best Theoretical Paper Award, Environmental Water Resources 
        Institute, ASCE, 2004

        -  Hancher-Finkbine Medallion, University of Iowa, 2000

        -  Rudolph Hering Medal, American Society of Civil Engineers, 
        1998

        -  Distinguished Fellow Award, Iowa Academy of Science, 1996

        -  Walter L. Huber Research Prize, American Society of Civil 
        Engineers, 1985

(v) Collaborators & Other Affiliations

(a) Collaborators: Pedro Alvarez, Gregory R. Carmichael, John 
        Crittenden, Larry Erickson, Charles Haas, Keri C. Hornbuckle, 
        Peter Jaffe, Craig Just, Steve McCutcheon, James Merchant, 
        Barbara Minsker, Kenneth Moore, Tatsuaki Nakato, Richard Ney, 
        Gene Parkin, Gary Pierzynski, John Rosazza, Michelle Scherer, 
        Ming-Che Shih, Mitchell Small, Peter Thorne, Richard Valentine, 
        Benoit Van Aken

(b) Graduate and Postgraduate Advisees: Eric Aitchison, Bryan 
        Boulanger, Joel G. Burken, Annette Dietz, Africa Espina, 
        Claudia Espinosa, Sumeet Gandhi, Kirk Hatfield, Shan He, Brad 
        Helland, James Jordahl, Roopa Kamath, Sara Kelley, Thorjorn 
        Larssen, Sijin Lee, Louis A. Licht, Malva Mancuso, Drew C. 
        McAvoy, Sara McMillan, Melissa Mezzari, Nikolaos Nikolaidis, 
        Deborah O'Bannon, Kurtis Paterson, Kimberly Precht, Jeremy 
        Rentz, Sanjay Singhvi, Philip L. Thompson, Benoit Van Aken, 
        John Veenstra, Mark Wiesner, Jong Moon Yoon, Bryan Young

(c) Graduate and Postgraduate Advisors: E. Gus Fruh (deceased), Donald 
        J. O'Connor (deceased), Werner Stumm (deceased)

(vi) Current and Pending Support

        <bullet>  Center for Global and Regional Environmental Research 
        (CGRER), Source of Support: Iowa Department of Commerce, 12/1/
        2007--on going, $600,000 per year.

        <bullet>  Sensors for CyberEngineering: Monitoring and Modeling 
        the Iowa River for Nutrients and Sediments, Source of Support: 
        Iowa Water Center (ISU) and U of Iowa matching, 3/1/2005-2/28/
        2007, $109,378.

        <bullet>  CLEANER/WATERS Project Office, Source of Support: 
        University of Illinois (UIUC) and NCSA, 7/1/2005-6/30/2008, 
        $3,000,000 total (subcontract $400,000 to UI-Schnoor).

        <bullet>  Phytoremediation for the Containment and Treatment of 
        Energetic and Propellant Materials on Testing and Training 
        Ranges, Source of Support: SERDP (DOD), 9/1/2005-8/31/2008, 
        $729,975.

        <bullet>  Superfund Basic Research Program, ``Effects of 
        Airborne PCBs,'' Project #5 Schnoor P.I., Source of Support: 
        NIEHS, 5/1/2006-9/30/2010, $750,000.

    Chairman Miller. Dr. Whicker.

   STATEMENT OF DR. F. WARD WHICKER, PROFESSOR, RADIOLOGICAL 
           HEALTH SCIENCES, COLORADO STATE UNIVERSITY

    Dr. Whicker. This is supposed to advance, but it is not 
advancing. Okay. I am a professor emeritus at Colorado State 
University. I have been in the business of doing radioecology 
teaching and research for about 45 years now. My familiarity 
with the Savannah River Ecology Lab stems from spending three 
years there doing research on my own full-time, and I have had 
a number of graduate students that have done their research 
there for their dissertations and theses.
    I think in the interest of time I will come back to this 
one. The importance of the Savannah River Site environment is 
important to recognize both scientifically as well as in other 
areas, educationally and so forth. The upper left slide is an 
aerial view of the Savannah River Site taken from a satellite. 
It shows mostly green surrounded by farmland and some 
urbanization. The large reservoir on the right hand of that 
green blob is our pond, which I am going to come back to in a 
moment.
    But when you are there as a scientist working, you would 
almost think that you are you in a national park. It has a 
tremendously diverse wildlife and as many people have said, it 
has been a National Environmental Research Park since about 
1972. These and many other species live there, and they are 
exposed to contaminants that have resulted from releases from 
the nuclear reactors and other industrial activities at the 
site.
    One of the main issues and things that the laboratory, 
Savannah River Laboratory can do is that they can get involved 
in the question about cleanup. The key to this is determining 
whether cleanup is really needed at all, not necessarily how to 
do it, unless it is important to do it. This requires risk 
analysis and the sciences which underpin the risk analysis.
    Cleanup costs, if you plot the level of contamination 
versus cost, you have two distinct thresholds. The biggest one 
of which is when you decide to have engineered cleanup. At that 
point the costs go up by many orders of magnitude, and the SREL 
science applies directly to that.
    I want to give you a case history if I can of Par Pond, 
because this is, I think, an example that really speaks to the 
value of the laboratory. This is a large impoundment created 
for cooling reactors. It operated for about 30 years, and then 
it was shut down in 1988, because the reactors were shut down, 
but the reservoir was still there. However, there were some 
leaks in the dam, and they decided that they needed to figure 
out what to do.
    In order to reduce risk in case the dam should fail, they 
dropped the lake level 20 feet. This exposed cesium-137 
contamination led to designation under CERCLA\1\ that something 
had to be done. This required a management decision. Yet there 
were several alternatives of how to treat this ranging from 
draining the reservoir and breaching the dam and repairing the 
dam and refilling the reservoir to contain the contaminants.
---------------------------------------------------------------------------
    \1\ CERCLA: The Comprehensive Environmental Response, Compensation 
and Liability Act, commonly known as Superfund.
---------------------------------------------------------------------------
    Risk assessment, one risk assessment was done by an outside 
firm. It was a paper assessment that said that it would be okay 
for somebody to farm the land, but SREL research showed this 
not to be the case based upon actual data. It basically showed 
that cesium-137 has extremely high plant uptake and that moves 
into the food chain, and it would produce a lifetime risk to 
somebody living there that would exceed the EPA guideline of 
one chance in 10,000 of getting a cancer some time in your 
lifetime. So that was not an acceptable option.
    The two remaining options were to fix the sediments in 
place or to excavate it. There was no feasible way at the time 
to fix it in place, and so one looked carefully at excavation, 
and the cost of excavation of this reservoir was going to be $4 
billion, at least. So we came down to the best option to repair 
the dam and fill the reservoir at a cost of about $12 million. 
This is less than one percent of the excavation.
    Then the question arose is what about the health and of 
humans and ecological impacts of allowing this contaminated 
reservoir even to exist. Well, the SREL research demonstrated 
that radiation dose rates to plants and animals were well below 
the applicable DOE standards. The radiation health risks for 
hypothetical sport fisherman or hunter would be well below EPA 
standards, and there would be essentially no risk to other 
people using the reservoir.
    Also, from many years and decades of research on the 
reservoir, there was never any clear evidence of ecological 
impacts from either radiation or chemicals, and so that gave 
one comfort that the radioactivity there was just there, it 
could be measured, but it wasn't causing any ecological damage.
    The outcome was that they did, in fact, repair the dam and 
refill the pond. It was essentially recovered in about five 
years. Over $4 billion was saved from this decision. The 
research that was done to lead to this outcome cost about 
$200,000 or 800 times less than the cost of that of dredging.
    In conclusion, I see I am out of time, SREL should be 
funded, and I think even expanded as an independent scientific 
organization. In fact, the SREL research has saved the 
Government more money than it has received. This Par Pond 
example I think proves that notion.
    A number of these other points have been made by others. 
Let us see if there is any here I should state. I guess down to 
the very bottom line. The funding required to maintain the 
infrastructure is relatively trivial. The cost of not restoring 
this funding, I think the costs of that are going to be 
extremely high.
    Thank you.
    [The prepared statement of Dr. Whicker follows:]
                 Prepared Statement of F. Ward Whicker
    I have been a member of the faculty at Colorado State University 
(CSU) for about 45 years. I retired from full-time duty about two years 
ago, but continue to teach and conduct research as a part-time, 
temporary employee. My field of teaching and research is called 
``radioecology'' which deals with natural and man-made radioactivity in 
the environment, the movement and accumulation of radioactive materials 
through the environment and food chains, the effects of radiation on 
plants and animals, and the assessment of health risks to people 
exposed to environmental radioactivity. Teaching, research and service 
have been the primary duties assigned to me at CSU, but I also served 
as Head of the Department of Radiological Health Sciences from 1998 to 
2002. I have had a number of national and international assignments 
outside of the university over my career and these are briefly 
summarized in my biographical sketch that accompanies this document.
    I have considerable experience working with scientists at the 
Savannah River Ecology Laboratory (SREL), and spent three years (1982, 
1991 and 1992) there conducting full-time research. I also mentored 13 
graduate students from CSU who each conducted research projects at SREL 
over the last 30 years or so. Most of my work at SREL has dealt with 
the distribution and transport of radioactive contaminants in reactor 
cooling reservoirs located on the Savannah River Site (SRS). I also 
spent considerable effort conducting human health risk assessments for 
various management options of a large, radioactively-contaminated 
reservoir (Par Pond), which had finished serving its main purpose of 
cooling hot water from P and R reactors, and which had shown leakage 
and internal erosion of the dam. I maintain an informal scientific 
collaboration with Dr. Thomas Hinton, a radioecologist at SREL, but 
have no financial interest with the laboratory nor with any other 
organization at the SRS.
    My testimony today is intended to provide my personal assessment of 
the overall value of SREL to the Department of Energy and to science 
and society in general. The main points I will attempt to make include 
the following:

        <bullet>  The SRS has enormous ecological, scientific and 
        educational value, in addition to its nationally important 
        programs related to defense, and potential programs related to 
        sustainable energy development.

        <bullet>  There will be a need for environmental assessments at 
        the SRS into the foreseeable future while the government 
        conducts various programs there in the national interest. These 
        programs may include national defense, nuclear fuel 
        fabrication, energy research and production, remediation 
        technologies, etc.

        <bullet>  Portions of this site may be ecologically-threatened 
        by scientifically unwarranted remediation, privatization or new 
        programs that may be ecologically damaging.

        <bullet>  SREL has and can continue to play a critical role at 
        the SRS by providing objective, independent science that 
        contributes information that is vital to decisions on 
        remediation, land management, stewardship and environmental 
        assessments of site activities. SREL research can 
        simultaneously spare valuable ecosystems and save large sums of 
        federal money.

        <bullet>  SREL has a very impressive track record for cost 
        effective, credible research. Unlike some DOE-sponsored 
        laboratories, SREL is a University of Georgia organization that 
        publishes nearly all of its work in peer-reviewed scientific 
        journals without censorship by DOE or other governmentally-
        affiliated organizations.

        <bullet>  Unique opportunities remain for education (K-12, 
        college, graduate levels and the general public) through SREL 
        outreach programs at the SRS. These opportunities range from 
        basic biology, ecology and numerous environmental sciences to 
        fields with direct application to Site activities such as 
        remediation technology, risk assessment, toxicology, 
        radioecology and geochemistry.

    The SRS encompasses over 300 square miles, approximately 85 percent 
of which is relatively pristine forest lands and aquatic ecosystems 
(streams, ponds and wetlands). Only about 15 percent of the land area 
has been developed for roads, parking lots, utility lines and 
industrial structures. The undeveloped land and waters essentially 
serve as a large buffer zone that protects the public from potential 
accidents or routine activities that could release radioactive and 
chemical contaminants to the environment. The buffer zone concept has 
functioned extremely well, and only very minor amounts of contamination 
have reached the lands and waterways that surround the SRS. A satellite 
view of the SRS clearly shows a roughly circular area of green forest 
surrounded by farmland and otherwise developed land. The SRS buffer 
zone provides a very rich and diverse flora and fauna that flourishes 
in the absence of significant human impact. This landscape provides 
enhanced air and water quality, not only within the boundaries of the 
SRS, but also in the surrounding landscape. The SRS serves not only as 
a sanctuary for fish and wildlife, but also as a nursery for plants and 
animals that can migrate outside the boundaries of the site, enhancing 
the environmental quality of surrounding areas.
    Scientifically, the SRS is of tremendous value because of its 
largely undeveloped nature and the fact that it is protected from 
unauthorized human intrusion. This situation provides extremely rare 
opportunities to study ecosystems that are not impacted by human 
activities, and those that may be impacted to various degrees by 
physical, chemical and radiological agents resulting from site 
operations. This situation led to the designation of a large portion 
(nearly 200,000 acres) of the SRS in 1972 as a National Environmental 
Research Park. The SREL has a distinguished history of over 50 years of 
existence on the SRS and has provided a tremendous body of knowledge 
that has contributed to Site operations, science in general, and public 
education.
    Much of the DOE budget in the past 15 years or so has been devoted 
to environmental cleanup, or remediation, of radioactively/chemically-
contaminated lands. Because most residual, long-lived radionuclides 
such as cesium-137 and plutonium-239 adhere very strongly to soil 
particles, their removal from contaminated areas by necessity involves 
removal of the soil or sediment in which the contamination is located. 
Thus, most cleanup methods require removal of topsoils on land and 
sediments in streams and impoundments. The volumes of contaminated soil 
or sediment can be enormous, and the material needs to be excavated and 
transported to a disposal location elsewhere. This process is not only 
extremely costly; it also damages the ecosystem that may be 
contaminated but is otherwise healthy, and it unavoidably leads to 
damage to the area designated for disposal of the material (see 
attached article: ``Avoiding destructive remediation at DOE sites,'' 
Science 303: 1615-1616 (March 2004)). There have been various DOE 
estimates of the total cost of such remediation activities, and most 
have been in the range of 100 to 500 billion dollars. As of about 2003, 
over $60 billion had been spent on remediation. In many cases, 
scientific risk assessments supporting the decision to remediate have 
been done poorly, and sometimes not done at all. Clearly, much of the 
soil remediation completed in the DOE complex has not actually reduced 
real health risks to real people. Instead, they have possibly reduced 
future risks to hypothetical people assumed to use the land in very 
unrealistic ways. Actually, the cleanup process itself produces risks 
to cleanup workers, and it has also caused spreading of otherwise 
stable contamination (Science 303: 1615-1616 (March 2004) ).
    I believe that the only objective and quantifiable way to determine 
the necessity of cleanup of contaminated areas is a rigorous, 
scientific assessment of the human health and ecological risks of 
proceeding with engineered cleanup, and comparing the results with the 
same risks of simply protecting and monitoring the area involved. It 
costs somewhat more to isolate and monitor a contaminated area than to 
just ignore it, but proceeding with aggressive, engineered soil removal 
escalates the costs by several orders of magnitude. The risks resulting 
from leaving contaminated soil or sediment in place generally increases 
in proportion to the level of contamination, so it is critical to 
carefully measure and document the levels of each identifiable 
contaminant in the area of concern as a first step in determining what 
action, if any, to take. The second action is to use science-based 
methods of assessing the human health and ecological risks from such 
documented levels of contamination. If the risks resulting from leaving 
contamination in place are sufficiently low, and if the costs of, and 
damage from, cleanup are sufficiently high, then it is difficult to 
justify action to remediate. The SREL is ideally poised to continue the 
science needed to make such decisions at the SRS. Just as importantly, 
SREL has the necessary credibility with the public and the regulatory 
agencies to have their findings trusted and used in the decision-making 
process.
    It seems instructive at this point to summarize an actual case 
study at the SRS that involved choosing between alternative approaches 
to managing a contamination situation that required relatively urgent 
action. The case study involved Par Pond, a 2,600 acre impoundment that 
was used for about 30 years to cool hot water from the P and R military 
production reactors. The reactors were shut down permanently by 1988, 
so the reservoir was no longer needed for the purpose of cooling. In 
1991, there were signs that the dam which created the reservoir was 
beginning to erode internally and starting to leak. As a safety 
precaution for people living downstream, the water level was lowered by 
about 20 feet, which exposed approximately 50 percent of the area of 
bottom sediments. The sediments in the reservoir had accumulated 
radioactive contamination during various periods of reactor operations, 
but most came from leaking fuel elements in R reactor in the late 1950s 
and early 1960s. The primary contaminant was cesium-137, a radionuclide 
with a 30 year half life that tends to be mobile in local ecosystems 
and which readily accumulates in plants, animals, and potentially in 
people.
    This situation led to the need to examine alternatives for managing 
Par Pond and its lakebed. On the one hand, the levels of cesium-137 
were sufficiently high to generate concern about protecting 
hypothetical people in the future who might use the area to grow crops, 
or people who might consume fish living in the reservoir. On the other 
hand, the 30 year stability and unexploited nature of the reservoir 
allowed the natural development of 30 shoreline miles of rich wetland/
littoral vegetation, a diverse and productive fishery that attracted 
bald eagles and osprey, American alligators, turtles and other 
wildlife. It also attracted thousands of waterfowl that found sanctuary 
from hunters during the winter months. In essence, Par Pond had become 
a large fish and wildlife refuge of exceptional quality. It was often 
referred to as one of the ``crown jewels'' of the many different and 
exceptional ecosystems of the SRS. Clearly, remediation of the 
reservoir would destroy this entire ecosystem.
    The Par Pond situation did not escape the attention of the 
regulatory agencies. The Environmental Protection Agency (EPA) declared 
the exposed lakebed a CERCLA or ``Superfund'' site, a designation which 
imposes a defined protocol for assessing all feasible alternatives for 
managing the site. The main alternative strategies that were developed 
and studied included:

        1.  Draining, breaching the dam, and converting the lakebed to 
        forest or other vegetation cover,

        2.  Draining, breaching the dam, and excavating and removing 
        the sediments,

        3.  Draining and attempting to fix the sediments in place, and

        4.  Repairing the dam and refilling the reservoir to cover the 
        <SUP>137</SUP>Cs-contaminated sediments.

    Option 1 initially looked feasible, and a generic, ``paper'' risk 
assessment by a non-SRS affiliated laboratory suggested acceptable 
risks for a hypothetical self-sufficient site resident who farmed the 
lakebed and subsisted on foods grown there. However, SREL research by 
scientists who made actual measurements on the lakebed contradicted the 
earlier study. Site-specific research showed the <SUP>137</SUP>Cs to be 
taken up by food crops to a much greater extent than did the generic 
``paper'' risk assessment, leading to a hypothetical risk that could 
exceed the EPA-unacceptable threshold of 10-4 by a factor of about 30. 
The 10-4 threshold means a one chance in 10,000 of getting fatal cancer 
from the exposure to radiation. This meant that Option 1 was an 
unacceptable management strategy.
    Option 3, fixing the <SUP>137</SUP>Cs in place was not considered 
feasible, due to unproven technologies for doing so, and very high 
costs. That left Options 2 and 4 for further consideration. Option 4, 
repairing the dam and refilling the reservoir initially looked 
unfavorable due to the cost, estimated at 10-15 million dollars. 
However, when Option 2, excavating and transporting the sediments 
elsewhere was examined, the cost estimate exceeded 4 billion dollars! 
Furthermore, Option 2 would have destroyed the Par Pond ecosystem and 
would have created serious water quality problems downstream due to 
erosion of sediments before the soil became stabilized with vegetation. 
At this point, Option 4 appeared to be the best solution, but then the 
question arose as to the effects of the <SUP>137</SUP>Cs radiation 
exposure to plants, animals, and hypothetical fishermen who might 
consume fish from the reservoir. Again, SREL research and assessment 
provided the answers. The radiation dose rates to plants and animals 
living in Par Pond would be well under the DOE protection guidelines 
(0.1 or 1.0 rad/day, depending on species), and the risk to the 
hypothetical fisherman consuming fish from the reservoir would also be 
under the EPA risk guideline of 10-4. Furthermore, decades of SREL 
research on the Par Pond biota showed no indication of radiation 
effects. On the contrary, the plants and animals living in the 
reservoir were diverse, robust and self-sustaining.
    In the end, the decision was made to pursue Option 4, repairing the 
dam and refilling the reservoir. The dam repair and enhancement was 
completed at a cost of about 12 million dollars. The reservoir was 
refilled and the ecosystem was almost fully recovered within about five 
years. The cost to repair the dam was less than one percent of the cost 
of Option 2, engineered cleanup. The cost for the SREL research which 
supported Option 4 was approximately $200,000, or at least 800 times 
less than the cost of engineered sediment removal. A final way in which 
SREL contributed to this sensible decision was to provide tours of Par 
Pond for personnel affiliated with State and federal regulatory 
agencies. Actually seeing the ecosystem in person and talking with 
scientists having first-hand knowledge gave key people a far different 
impression than just reviewing piles of documents. I believe that this 
kind of success story can be repeated many times over in the future, 
leading to preservation of ecologically-valuable areas and saving large 
sums of money as well. However, a decision such as this requires 
detailed scientific information directly relevant to the problem, and 
the information needs to be generated by an independent, credible 
laboratory. SREL is that kind of laboratory.
    In conclusion, I believe the following points are true and relevant 
to the current funding crisis for the SREL:

        <bullet>  The SRS is of great social, ecological, scientific 
        and educational value. SREL should be funded to continue and 
        even expand its role as an independent scientific organization 
        that plays a key role in the long-term stewardship of the SRS.

        <bullet>  SREL research has saved the government far more money 
        than it has received. The Par Pond example alone proves this 
        notion.

        <bullet>  SREL research over the last 50 years has demonstrated 
        time and again how nuclear activities can be compatible with a 
        high degree of environmental quality.

        <bullet>  SREL's work is credible to other scientists, 
        regulators and the general public because it is an independent 
        scientific/academic organization with an excellent reputation 
        for integrity, high-quality work, productivity and educational 
        outreach activities.

        <bullet>  Some of the SREL research will be essential to the 
        generation of public and political support for commercial 
        nuclear power, which is expected to be a significant part of 
        the solution to our over-dependence on foreign oil and global 
        warming.

        <bullet>  In terms of cost per scientific publication, the SREL 
        has been one of the most, if not the most, cost-efficient 
        environmental research laboratory in the DOE complex.

        <bullet>  Largely as a result of SREL research, the SRS is 
        probably the most well-characterized site in the DOE complex. 
        This will continue to save time and resources in the planning 
        process for new missions and providing required environmental 
        regulatory documents, if SREL's ``corporate knowledge'' is 
        retained through restored funding.

        <bullet>  SREL provides training unique to environmental 
        problems of military and industrial sites. Students and 
        visiting faculty from colleges in every state have come to SREL 
        for hands-on experience. Few, if any, other sites in the DOE 
        complex can offer this kind of training in a truly academic 
        atmosphere.

        <bullet>  The funding needed to maintain the infrastructure of 
        SREL is relatively trivial, while the costs of shutting it down 
        are not.

    I fully believe that shutting down the SREL is a serious mistake 
that is not in the national best interest. I sincerely hope that this 
is realized before it is too late, and that funding for the laboratory 
can be restored.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     Biography for F. Ward Whicker
    Dr. Whicker has been a member of the CSU faculty since 1965 and, 
from 1998-2002, Head of the Department of Radiological Health Sciences. 
He played the key role in the development of the internationally-
recognized graduate program in Radioecology, and is widely regarded as 
one of the founders of this field, which addresses the fate and effects 
of radioactivity in the environment. His formal teaching extends beyond 
CSU to numerous organizations, including the International Atomic 
Energy Agency, the International Union of Radioecologists, and the U.S. 
Environmental Protection Agency. In 1989 he established the Par Pond 
Radioecology Laboratory at the Savannah River Site. His over 170 
scientific publications include 98 in peer-reviewed journals, 33 book 
chapters and five books. His awards include the ``E.O. Lawrence Award'' 
from the Department of Energy (1990), the ``Distinguished Scientific 
Achievement Award'' from the Health Physics Society (2004), and the 
``V.I. Vernadsky Award'' from the International Union of Radioecology 
(2005). His research on the effects of ionizing radiation on plants and 
animals has contributed to the development of national and 
international standards and guidelines for protecting the general 
environment from radioactive contamination. Dr. Whicker has served on 
many committees and advisory panels at national and international 
levels. These include the Board of Directors, Scientific Vice 
President, Honorary Council Member, and Member or Chair of several 
committees of the National Council on Radiation Protection and 
Measurements. He has served on Committees of the National Academy of 
Science/National Research Council in the area of environmental problems 
of the DOE Weapons Complex. He has chaired national and international 
working groups and scientific writing teams, for example, for the 
International Atomic Energy Agency, the International Commission on 
Radiation Units and Measurements, and the National Council on Radiation 
Protection and Measurements. He has served on review panels for many 
organizations, including the Environmental Protection Agency, the U.S. 
Congressional Office of Technology Assessment, Los Alamos National 
Laboratory, the National Cancer Institute, the Centers for Disease 
Control and Prevention, the States of Colorado and Maine, the Office of 
Naval Research, Sandia National Laboratory, Battelle-Pacific Northwest 
Laboratory, and the Southwest Research Institute. He has consulted for 
many private organizations and has served as an expert witness on 
numerous litigation issues concerning radioactivity in the environment. 
He served four years as Associate Editor for the Americas for the 
Journal of Environmental Radioactivity.

                               Discussion

    Chairman Miller. Thank you. At this point we will open our 
first round of questions, and the Chair recognizes himself for 
five minutes.

                      Private Contractors Vs. SREL

    First, Dr. Whicker, your example of remediation at Par 
Pond, could a contractor have provided similar information to 
support the option of remediation in place as opposed to 
excavation?
    Dr. Whicker. They could not have come in and done the job 
very quickly. One of the key things was that the observation of 
fish and wildlife in that reservoir had been going on for 
decades, and the radioactivity had been there for decades. It 
was gradually decaying. If there were going to be effects, it 
probably would have occurred 30 or 40 years ago. So, no, I 
don't think a private contractor could come in and do the job 
properly.
    There was a risk assessment done by a private contractor on 
what the risks would be of farming the lake bed and someone 
living on the lake bed. They are the ones that came up doing a 
paper study with the notion that, yeah, it would be safe to 
farm out there, but they didn't take any data, they didn't 
really factor in the increased mobility of cesium-137 in that 
particular kind of soil.
    So, and I was told that that research cost about $1 
million. It was done very quickly and on paper. They never came 
to the site to look at it.

                 National Environmental Research Parks

    Chairman Miller. SREL is one of seven National 
Environmental Research Parks associated with DOE installations 
in different parts of the country, different ecological zones. 
What is the value of having research in each ecological zone? 
Is it important that there be a network of sites to allow kind 
of a regional understanding of ecological issues?
    Dr. Whicker. Yes, it is. Each of the DOE sites, the major 
sites, have different kinds of soil and the type of soil 
determines the mobility of radio-nuclides and contaminants in 
that soil, including how much is taken up into the food chain 
and thereby how much risk will there be to someone living on 
that side. So, yeah, it is important to do these kinds of 
studies at all the major sites. They all differ quite a bit in 
terms of their ecology and their geochemistry.

               The Value of Long-term Ecological Research

    Chairman Miller. What is the importance of longer-term data 
for reptiles, birds, amphibians in deciding which is, deciding 
on a credible risk assessment for different remediation 
options, excavation versus remediation in place?
    Dr. Whicker. Well, the long-term aspect is important. It 
is, you know, you can go out on the field and observe things in 
the field of ecology, but figuring out what is causing what is 
very, very difficult. Let us say you see a decline in a 
particular wildlife species, and you say, well, gee, is it 
because there is a little bit of, there is cesium-137 out 
there, or is it a natural cycle? Is it due to some other factor 
that we are not even aware of?
    Ecology is a science that has to be very innovative to try 
to figure out what causes what. You can observe things, but 
understanding the causes takes years, if not decades, of 
observation.
    Chairman Miller. To set an example to other Members of the 
Committee I will now yield to Mr. Lampson for his first round 
of questions.
    Chairman Lampson. Thank you, Mr. Chairman. Let me start 
with Dr. Whicker, and I have a question or two.
    Radio-nuclides like cesium-137 and plutonium-239 are 
tainted in the environment for a long time, and although they 
attach to soil particles, they do move in the environment and 
sometimes are detected offsite. Now, I understand that the 
monitoring of animals and plants helps us to understand those 
paths. If these substances moved through the food chain, is it 
possible that larger, longer-lived animals carry this 
contamination offsite? And so is monitoring of birds, mammals, 
fish, and reptiles important from the perspective of insuring 
the safety and human health of people in surrounding 
communities?
    Dr. Whicker. It is true that animals such as birds and fish 
do pick up contamination, and yes, indeed, they can migrate off 
site. Studies have been done at Savannah River Ecology Lab and 
at other sites, and they generally show that just a very tiny 
amount of radioactive or chemical materials actually get moved 
off site by immigration of individuals from the side.
    Clearly observing these pathways of contaminant transport 
in animals and so forth does tell us a lot about what humans 
might be exposed to, and a lot of the work that has been done 
there has even been done in the context of agriculture. It 
isn't just pure ecology that we are concerned about. It is 
agriculture ecosystems, and we can learn about, a lot about 
that from the kind of work that has gone on at the Savannah 
River Site.
    We planted crops that people eat right on the Par Pond 
lakebed, for instance, and we looked at the uptake of cesium 
and other radio-nuclides into corn and okra and turnips and 
lettuce and so on, and that would be something that a self-
sufficient farmer who might occupy that land in the future 
would be exposed to.
    Chairman Lampson. Would both of you comment on this 
question. Can natural attenuation be used safely as a 
remediation option if it is not coupled with a credible long-
term monitoring program?
    Dr. Schnoor. By definition monitored natural attenuation 
includes long-term monitoring and modeling to make sure that 
the contaminants aren't migrating off site or posting an undue 
risk to humans or to animals. So, no, it cannot be done without 
long-term monitoring.
    Dr. Whicker. And I might add that the idea of monitored 
natural attenuation is a very effective one. The wisdom of 
putting these DOE sites in large areas where there is a buffer 
zone has really resulted in extremely small amounts of 
contamination ever getting off site. That is not to say that 
none does, but the levels that do get off site are extremely 
small because they do get tied up in the sediments, they are 
taken up in the biota. Actually, I can tell you that the 
presence of the Savannah River Site actually helps to improve 
both water quality and air quality for that whole region, as 
opposed to the idea if that whole area were say agricultural. 
The streams coming off the Savannah River Site are largely 
black water streams. They are clear. They are generally devoid 
of contaminants, where if you look at the streams coming into 
the river from the other side where they are coming off 
farmland is usually muddy, and that is usually loaded with 
pesticides and that kind of thing.
    So I think the site engenders a high degree of 
environmental quality that extends well beyond the borders of 
the plant.
    Chairman Lampson. Mr. Chairman, instead of carrying over, 
my next question will be longer than five minutes, so I will 
yield out my time at this point.
    Chairman Miller. Thank you, Mr. Lampson. Mr. Sensenbrenner 
for five minutes.

                 National Laboratories' Overhead Costs

    Mr. Sensenbrenner. Yeah. Thank you very much, Mr. Chairman.
    Both of you, do you believe as a general rule that research 
funds should be parceled out on a competitive peer review basis 
or by Congressional or Executive Branch earmarks?
    Dr. Whicker. I am not sure I quite understand your point. 
If I understand it a little bit, the work that the Savannah 
River Ecology Lab does is submitted to peer review journals and 
so forth, has to go through peer review before it can be 
published. However, it is not subject as far as I know to any 
kind of censorship from the Department of Energy.
    Mr. Sensenbrenner. I am talking about the grants to do the 
research that result in the publication.
    Dr. Whicker. Well, yeah. The grants that they get, they 
have to compete for grants. When they go after funding that 
would be from now DOE sources or non site, you know. It would 
be over and above their normal.
    Mr. Sensenbrenner. Dr. Schnoor.
    Dr. Schnoor. I agree that funding should be competitive, 
however, in the case of the Savannah River Ecology Laboratory, 
a certain base level of funding I think is necessary to keep 
the operation going and to insure and maintain the long-term 
research.
    Mr. Sensenbrenner. Yeah. I guess, you know, I guess the 
observation that I would make or make two observations, you 
know. One is is that neither Colorado State University nor the 
University of Iowa, or for that matter the University of 
Wisconsin, Madison, is able to get a specific line item from 
the DOE for things that should be competitively peer reviewed. 
You know, they ache to basically have their projects compete 
against everybody else's, and if they end up losing out, then 
those scientists are not funded by the Federal Government, and 
it is up to, in the case of each of these three institutions 
that I mentioned or for that matter, the University of Georgia, 
to determine whether or not to use their own funds to get from 
the legislature to continue that base.
    And I guess my question is is why should SREL be treated 
differently in terms of competitive peer review funding for 
this type of research than most of the other institutions in 
the country when they compete for scientific research grants?
    Dr. Schnoor. The Savannah River Ecology Lab, their research 
is peer reviewed, and my testimony----
    Mr. Sensenbrenner. No. I am talking about, you know, this 
is after the research is done. I am talking about----
    Dr. Schnoor. About the award.
    Mr. Sensenbrenner.--the award, because, you know, with you 
at the University of Iowa, you don't get the award. You don't 
do the research unless you get the state legislature to decide 
to fund it. Now, why shouldn't the same hold true with research 
that is done at SREL, where if they don't get the award, then 
it is up to the Georgia legislature to determine whether or not 
to continue the funding?
    Dr. Schnoor. A certain amount of funding is necessary at 
these laboratories just to keep the doors open and to keep a 
base-level research going.
    Mr. Sensenbrenner. Uh-huh.
    Dr. Schnoor. Then they should compete and do compete for 
other outside funds.
    Mr. Sensenbrenner. Well, I guess neither of you get my 
point, and I am trying to see why SREL ought to be dealt with 
differently in terms of funding for the basic research than 
practically every other institution in the country, whether it 
is a state university or whether it is a private university. 
Everybody else rolls the dice, well, with competitive peer 
review grants, and they have got to do it year after year after 
year. And if they don't win the competitive peer review grants, 
then they either go to the legislature or fold up shop. What is 
different about SREL?
    Dr. Schnoor. I am trying to answer your question, and that 
is that at research laboratories and SREL is no different than 
other EPA or DOE laboratories, you need a base level of funding 
to keep the----
    Mr. Sensenbrenner. Uh-huh.
    Dr. Schnoor.--infrastructure, the research operation going. 
And that is really what we are talking about here, and a 
rather, in my opinion, a small amount of funding also. Ten 
million dollars is really quite small considering the quality 
and level of research that is going on at SREL.
    Mr. Sensenbrenner. But why should SREL get a line item and 
the University of Iowa doesn't?
    Dr. Schnoor. Well, the SREL gets a line item just like all 
the other National Research Laboratories.
    Mr. Sensenbrenner. Well, I am saying but why should they, 
because a peer review committee might decide that research that 
is done not at a National Research Laboratory has a higher 
priority for funding than SREL.
    Dr. Schnoor. I understand your question, and, of course, at 
the University of Iowa we would love to have a line item 
funding also, but we are not a National Laboratory located in 
one of these----
    Mr. Sensenbrenner. But, Dr. Schnoor, my time is up. You 
know, my point is turning the coin over, you know, and that is 
that I know you would like to have, you know, a line item of 
funding, but why should SREL's line item of funding take away 
the potential of you getting more because your peer review 
research proposal is determined to be better by the committee?
    I yield back.
    Chairman Miller. Mr. Bartlett for five minutes.
    Mr. Bartlett. Thank you very much. Is it your understanding 
that generally speaking in the community at large and the 
scientific community and in the medical community that the 
lower the level of radiation the better?
    Dr. Whicker. Yes. The lower the better.
    Mr. Bartlett. Do you agree, Dr. Schnoor?
    Dr. Schnoor. Yes. There is a, in certain types of health 
outcomes, health effects, it is still thought that even a 
single bit of radiation could be enough to begin the disease 
process.
    Mr. Bartlett. Are you familiar with Hansey Selea? That name 
mean anything to either one of you?
    Dr. Whicker. Could you pronounce it again?
    Mr. Bartlett. Hansey Selea. H-a-n-s-e-y.
    Dr. Whicker. No. I am sorry.

                           Radiation Hormesis

    Mr. Bartlett. Hansey Selea was a, one of the early 
investigators from Montreal, Canada, I believe, in stress. I am 
81 years old, so my work in the scientific community is 50 
years old and more, so he is back in history. But he was the 
first investigator to begin to understand the role of stress in 
the body. I wish I had come prepared with the actual data, but 
there is scientific evidence that appropriate levels of 
radiation are beneficial. Because what they do like any other 
stressor out there, they challenge the body's defenses, and 
these defenses are martialed so that we are then better able to 
withstand other stresses.
    I know that your perception is the perception of the 
general community and it should not be the perception I think 
of the scientific community, particularly the medical 
community. You know, radiation is just another stressor. As far 
as I know there is nothing unique about that, and I think that 
we are spending excessive amounts of money in cleanup, which 
with a hard look is really silly. It is just another stressor. 
Water is a great absorber. Your observation that refilling the 
impoundment was the right thing to do. It doesn't take much 
water to absorb this radiation, and the organisms living near 
it are probably better off for the moderate levels, the 
appropriate levels of radiation they are getting because their 
residence is built up, the body's defenses work that way.
    What do we have to do so that we change this perception 
that the less the better? I don't believe that radiation is a 
unique stressor. I don't think the scientific evidence 
indicates it is a unique stressor, and we just are straining 
that and spending all sorts of money we don't need to spend in 
cleaning up the last vestiges of this contamination.
    All of the ground in these cleanup areas don't have to be 
appropriate for establishing a daycare center where the kids 
may sit and put dirt in their mouth.
    That is the rules that we adhere to, and I think that we 
are spending at least an order of magnitude, too much money in 
cleaning up these sites, because we don't understand the 
science and physiology and the medicine.
    Dr. Whicker. Well, I agree with you, and in fact, my 
written testimony has an article published in Science that says 
basically what you are saying. The thing of it is is that it 
takes a lot of science to demonstrate what you are talking 
about and oftentimes to convince the regulatory community and 
the public that cleanup may not always be warranted because the 
damage can be great, the cost can be high.
    The notion of a little bit of radiation being good for you, 
that is a well-known phenomenon called hormesis, and that has 
received a great deal of attention over the years. Of course, 
we live in a radiation environment. We are sitting here right 
now, and we are getting a fair amount of radiation just because 
our environment, cosmic radiation, radioactivity in the earth's 
surface that has been there since the earth was formed. And so 
but the way that I answered your original question of, is that 
for the purposes of radiation protection, they assume that the 
dose and response to that dose is a linear phenomenon, but 
there is evidence--the trouble is there is not consensus on 
that, and getting the data to pin it down at the very low doses 
is very difficult.
    Mr. Bartlett. Yeah. I don't know of any evidence that says 
that this is not true. Thank you very much.
    My time is up, Mr. Chairman. Thank you.
    Chairman Miller. Thank you, Mr. Bartlett.
    I will now recognize myself for an additional five minutes 
for a second round of questioning.
    Mr. Sensenbrenner's questions regarding peer review I think 
foreshadows the testimony on August 1. Both of you are involved 
in scientific research and are familiar with what is involved, 
what is required typically of peer review. Is that correct?
    Dr. Schnoor. Yes.
    Dr. Whicker. Yes.

                   Competitive Grants and Peer Review

    Chairman Miller. My impression of peer review for a grant 
is that the grant application is very thorough in the 
information called for, in the information that the applicant 
must provide. Is that correct?
    Dr. Schnoor. Yes.
    Dr. Whicker. Yes.
    Chairman Miller. Okay.
    Dr. Schnoor. I might add, Chairman Miller, that there are 
grants that are competitive, and there are grants that are part 
of a mission agency.
    Chairman Miller. Right.
    Dr. Schnoor. And I think that----
    Chairman Miller. With respect to peer review.
    Dr. Schnoor.--you need both kinds----
    Chairman Miller. To make a judgment by, to allow a judgment 
by others expert in the same field. Would it typically be the 
case that the information requested would be very thorough and 
would be the information needed to review?
    Dr. Whicker. Yes.
    Dr. Schnoor. Yes.
    Chairman Miller. Okay. If Dr. Bertsch testifies on August 1 
that the information required of him was a sentence or two 
description of the work they plan to do, does that sound to you 
like the information usually required for a scientific or 
technical peer review?
    Dr. Schnoor. No.
    Chairman Miller. Okay. And a second question about peer 
review. With respect to peer review, what kinds of documents 
does it generate? Are there memoranda describing the failings 
of the proposal if peer review is critical? What, are there 
documents typically generated as a result of peer review?
    Dr. Whicker. Are you talking about in applying for a 
research money or----
    Chairman Miller. Well, in making the decision.
    Dr. Whicker.--when it comes to publishing?
    Chairman Miller. Whoever makes the decision with respect to 
peer review, are there not generally documents generated as a 
result of peer review?
    Dr. Whicker. I think----
    Chairman Miller. Memoranda, letters, something that would 
say what exactly the reviewer was looking for or if the 
reviewer found something wanting, exactly what was wanting.
    Dr. Whicker. Sometimes the person who submits the grant 
proposal will hear about those things, and they will get some 
communication back, but not always in my experience. Sometimes 
you just find out that you don't get funded, but you never hear 
about why.
    Dr. Schnoor. Well, normally I would say you, as one who 
proposes for research funding, you do receive letters of review 
back from panels who have looked at your research, and those 
remain anonymous. You don't find out what they were.
    Chairman Miller. Okay.
    Dr. Schnoor. But you do get to see----
    Chairman Miller. Well, that is what you see as having 
applied for a grant----
    Dr. Schnoor. That is correct.
    Chairman Miller.--subject to peer review, but internally, 
whether you see it or not, would you expect there to be some 
document of some kind that sets forth what the failings were 
that led to the denial of funding?
    Dr. Schnoor. Yes. That would be my belief.
    Chairman Miller. Okay.
    Dr. Schnoor. Yes.
    Dr. Whicker. I would think so as well.
    Chairman Miller. And if the Department of Energy has no 
documents that really reflect a peer review, an analysis of the 
work done at the Savannah River, the SREL, Ecology Lab, then 
perhaps there was not a genuine peer review. Is that----
    Dr. Whicker. I would hate to speculate.
    Dr. Schnoor. I couldn't speak for the Department of Energy. 
I can say that there are, papers from the Savannah River 
Ecology Lab have been peer reviewed, their technical scientific 
papers.

            Environmental Remediation Research Done By SREL

    Chairman Miller. All right. Dr. Schnoor, we still have 
Superfund sites we are still cleaning up. The sites were on 
federal and private lands throughout the country. Are the 
studies that have been done at SREL applicable to remediation 
of environmental damage and other areas?
    Dr. Schnoor. Yes. I think my testimony shows that most of 
the papers, especially recently, are related to the problems at 
the Savannah River Site. But certainly these problems are 
shared by many other sites, and the research is applicable 
broadly.
    Chairman Miller. What is the status of our developing the 
technologies to cleanup safely environmentally-contaminated 
sites, particularly DOE sites, particularly radiation sites 
with the contaminous radiation?
    Dr. Schnoor. Especially where you have mixed wastes, that 
is both radio-contaminants as well as other contaminants 
together. These are considered to be among the more difficult 
sites to clean up, and proportionately more of those remain 
than other sites.
    Chairman Miller. All right. How would you evaluate SREL as 
a candidate for undertaking further research into remediation 
as a technique for cleanup? Based upon your experience with 
that lab?
    Dr. Schnoor. I think this lab is performing extremely well 
considering the rather small number of faculty involved in 
research there and the small federal funds and state funds 
committed to it.

                       Fate and Transport Studies

    Chairman Miller. All right. I think we throw around terms 
like all of us know what they mean on this hearing. I think in 
hearings like this where members are not willing to betray 
their general ignorance of the signs, but what are fate and 
transport studies?
    Dr. Whicker. Am I part of the questioning here?
    Chairman Miller. Yes. Either one of you. Yes, sir. Dr. 
Whicker
    Dr. Whicker. Fate deals with where contaminants go once 
they are released, usually either to air or water. In other 
words, let us say you put a contaminant into water. It is, some 
contaminants will stay in the water but most of them will stick 
to soil particles, silt particles, phytoplankton, little 
organisms in the water. Then they might move through the food 
chain or they might not, depending on their chemistry. So that 
is what we mean by fate, what happens to it, where does it go.
    Chairman Miller. And transport. Is that different or is 
that part of fate?
    Dr. Whicker. It is the same thing basically.
    Dr. Schnoor. Transport is sort of where it goes----
    Dr. Whicker. Yeah.
    Dr. Schnoor.--and fate is sort of what happens to it along 
the way.
    Dr. Whicker. Yes.
    Chairman Miller. Okay. A knowledge of where contaminants go 
and what happens to it, is that important beyond cleaning up on 
site. Would that be important, for instance, in any kind of 
activity at a contaminated site that disturbs the soil, 
construction activity, for instance?
    Dr. Whicker. Oh, yes. It is extremely important, and in 
fact, there are cleanups that have been done in the DOE complex 
that the cleanup itself generated dust and that dust blew 
offsite, and that led to a multi-billion dollar lawsuit. This 
was at Rocky Flats.
    Chairman Miller. I think that is all the questions that I 
have and since that is all the questions I have, that is all 
the questions that any Member has. But thank you for being here 
today. We will have a second panel on August 1. Dr. Bertsch, 
this will be your second trip to Washington. I understand that 
you have time on your hands now, but I appreciate and apologize 
for your coming today without testifying. We will try to 
accommodate your schedule on August 1. I will let you testify 
first and get on with your day.
    With respect to the Department of Energy witnesses, I 
strongly urge all the witnesses not to make lunch plans, not to 
make dinner plans. We will continue until we have completed the 
testimony scheduled for August 1.
    The best predictor of what a hearing, an Investigations and 
Oversight hearing will be like, how searching the questioning 
will be, how thorough it will be, is how motivated the Members 
are and the staff is. I think you should assume that the staff 
and the Members will be very motivated on August 1.
    With no further business, we are adjourned.
    [Whereupon, at 11:50 a.m., the Subcommittees were 
adjourned.]


<Graphics Not Available in Tiff Format>

</pre></body></html>
